<html>
<title> - A REVIEW OF U.S. FOREIGN POLICY AT THE END OF THE CLINTON ADMINISTRATION</title>
<body><pre>[Senate Hearing 106-879]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-879

       A REVIEW OF U.S. FOREIGN POLICY AT THE END OF THE CLINTON 
                             ADMINISTRATION

=======================================================================

                       HEARING AND PUBLIC MEETING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
69-749 CC                   WASHINGTON : 2001




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Albright, Hon. Madeleine K., Secretary of State, Department of 
  State, Washington, DC..........................................     4
    Prepared statement...........................................     6
    Responses to additional questions submitted by Senator Jess 
      Helms......................................................    36
    Responses to additional questions submitted by Senator Gordon 
      Smith......................................................    44

                                 (iii)

  

 
       A REVIEW OF U.S. FOREIGN POLICY AT THE END OF THE CLINTON 
                             ADMINISTRATION

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Lugar, Hagel, Grams, Brownback, 
Biden, Sarbanes, Dodd, and Wellstone.
    The Chairman. Good morning. At last we are able to begin 
this meeting, and I understand that an objection has been filed 
by someone, frivolously, on the Senate floor to object to our 
meeting past 11:30, but we will see.
    Once again, ladies and gentlemen, it is our pleasure to 
welcome a great lady who is special to all of us, the 
distinguished Secretary of State, Hon. Madeleine Albright, and 
that is the good news. The bad news is this, Madam Secretary. 
This is your final official appearance as Secretary of State, 
unless we can get you reappointed.
    I counted up over the weekend, Madam Secretary, and if I 
did not miscount somewhere along the line this is your 
eighteenth appearance before this committee. It has always been 
a pleasure to have you here. You have always been straight with 
us, and you have always prompted the committee to participate 
in wide-ranging discussions on crucial issues of U.S. foreign 
policy, and you have never ducked a question.
    Now, we have not always agreed, but when we have not, we 
have agreed to disagree agreeably. In any event, I am going to 
repeat, you are a great lady, and I believe the record will 
show that all together we have accomplished a very great deal.
    We worked together for the expansion of NATO, to include 
Poland, Hungary, and the Czech Republic, and in doing so the 
scars of Yalta were erased, and that was followed by an 
assurance of democratic futures for host nations. We reached 
agreement on landmark legislation to reorganize and revitalize 
the State Department, abolishing two of those temporary Federal 
agencies that were created back in the 1950's and integrating 
any of their essential functions into the State Department, 
where they belong.
    So Madam Secretary, together we have abolished two and we 
may have something to propose about a third next year, and I am 
going to ask that the balance of my statement be printed in the 
record, and I call on the distinguished Ranking Member of the 
committee, Mr. Biden.
    [The prepared statement of Senator Helms follows:]

                Opening Statement of Senator Jesse Helms

    Once again, it's a pleasure to welcome a great lady who is special 
to all of us, the distinguished Secretary of State, the Honorable 
Madeleine Albright. That's the good news.
    The bad news is that this, Madam Secretary, will be your final 
official appearance as Secretary of State. I counted up over the 
weekend, Madam Secretary, and if I did not miscount somewhere along the 
way, this is your 18th appearance before the Senate Foreign Relations 
Committee.
    It has always been a pleasure to have you with us. You have always 
been straight with us, and you have always prompted the Committee to 
participate in wide-ranging discussions on crucial issues of U.S. 
foreign policy.
    We have not always agreed, but when we have not, we have agreed to 
disagree agreeably. In any event, you are a great lady and I believe 
the record will show that together we have accomplished a great deal.

  <bullet> We worked together for the expansion of NATO to include 
        Poland, Hungary and the Czech Republic. In doing so, the scars 
        of Yalta were erased and that was followed by an assurance of 
        democratic futures for those nations.

  <bullet> We reached agreement on landmark legislation to reorganize 
        and revitalize the State Department, abolishing two of these 
        ``temporary'' federal agencies that were created in the 1950's, 
        and integrating any of their essential functions into the State 
        Department. So, Madam Secretary, together we abolished two, and 
        I may have something to propose about a third, AID, next year.

  <bullet> We secured passage of landmark U.N. reform legislation so 
        that a reasonable part of our so-called UN ``arrears'' can be 
        paid--in exchange for sweeping reforms at the U.N. I think it 
        is fair to say that we have agreed at the outset of Secretary 
        General Kofi Annan's tenure on conditions that--if the U.N. 
        does its part--will result in a renewed U.S. relationship with 
        a reformed United Nations. But that's up to the U.N. to achieve 
        those reforms.

    In short Madam Secretary, perhaps that's not a bad few years' work 
for a lady who escaped from communism in Czechoslovakia who worked 
always agreeably with a couple of Monroe boys, Bud Nance, and me. 
Admiral Nance thought highly of you, and so do I and I believe both you 
and I miss our friend, the Admiral.
    So, Madam Secretary, we welcome your testimony here today. And I am 
confident that I speak the sentiments of my colleagues on both sides of 
the aisle in assuring you that it has been a pleasure and a privilege 
to work with you. Wherever your career takes you in the coming months 
and years, you will always be remembered with affection and admiration 
by all Senators of this Foreign Relations Committee.

    Senator Biden. Thank you, Mr. Chairman. Let me begin, Madam 
Secretary, by saying as well as the chairman and I get along, 
and we do, I am going to miss you, because I tell you what, 
when you are around you make my life a lot easier with him. I 
am going to miss you personally. I will not, I hope, miss your 
advice, which I was always able to receive before you were in 
this position, and I hope I will be able to receive it after 
you leave this position.
    I would like to welcome you back for what probably is going 
to be your last appearance before this committee as Secretary, 
but I suspect that, as I said, I will not be the only one 
calling on your wisdom many times in the future. I am not being 
presumptuous about my tenure, but God willing and the crick not 
rising I have 2 more years.
    Let me be straightforward in the very beginning. I think 
despite the inevitable ups and downs of an incredibly complex 
international relations, the administration's foreign policy, 
led by you, has been highly successful. You would expect me to 
say this, I guess, as a friend and as a Democrat, but I think 
you deserve a great deal of credit.
    Policy begins with policymakers, and the 1997 and 1998, on 
a bipartisan basis, and in close cooperation with you, Madam 
Secretary, this committee developed, and Congress approved, 
what your predecessors were afraid to touch, and that is 
landmark legislation to reorganize and streamline the foreign 
policy agencies of the U.S. Government, led by our chairman. He 
had been moving and trying to get attention on that issue for, 
what, 6, 8, 10 years before, but in earnest probably the 
previous 2 or 3 years.
    By integrating the arms control and public diplomacy 
functions into the State Department, and by giving the 
Secretary of State increased authority over foreign assistance, 
I think we have established a sound organizational framework 
for the challenges of the new century, and your efforts Madam 
Secretary, and those of Ambassador Holbrooke, again with the 
great help of the chairman of the committee, have led the 
committee and the Congress on a much-needed change of attitude 
toward the United Nations.
    If it was a perfect world, you and I would have written 
Helms-Biden slightly differently, but the fact of the matter is 
there is progress, significant progress, and we are I think--as 
I said, the attitude--the attitude has changed.
    Our relationship with Russia remains strategically, in my 
view, our most important one. To whatever degree Russia's 
current weakness exists, it is still the only country with 
weaponry potentially available to annihilate the United States 
and imposes a mortal threat to us.
    All of us continue to worry about the stability of that 
country, as well as other countries in the region, and under 
your leadership, Madam Secretary, the United States has worked 
to keep Russia's weapons technology--and the know-how of its 
scientists--from being transferred to rogue states.
    We have had some successes, particularly regarding Russia's 
scientists, but preventing the transfer of technology of 
weapons of mass destruction and their delivery systems presents 
a persistent challenge of the highest priority there.
    Perhaps no region in the world has been more senseless 
tragedy and upheaval and ethnic hatred in the past decade than 
in the Balkans, and you have been, more than anyone else in the 
administration, instrumental and a persuasive voice within the 
administration in trying to resolve the region's century-old 
and seemingly intractable problems, in the eyes of many 
Americans and Europeans.
    Under your leadership, we have helped implement the Dayton 
Accords, returning some measure of peace and stability to that 
war-torn country of Bosnia-Herzegovina, and we have also moved 
to stop the brutal murder and forced expulsion of millions of 
Kosovar Albanians. Perhaps better than anyone else, you 
understood Europe's security and stability is vital to our own, 
and you realized the Balkans, and convinced others in the 
administration and out, that they were part of that security.
    And I think you understood the moral imperative for the 
United States and its NATO allies to reverse Slobodan 
Milosevic's murderous ethnic cleansing in Kosovo and hopefully, 
Madam Secretary, as we discussed privately earlier with the 
chairman, we may be seeing the beginning of the end of 
Milosovic.
    Much, of course, remains to be done, and I am eager to hear 
your views, Madam Secretary, regarding Balkan policy and the 
direction you think we need to take.
    The Senate's passage last week of legislation granting 
China permanent normal trade relations, even though the 
chairman and I disagreed on that issue, I think has to be 
viewed as a significant accomplishment.
    As important as trade is, though, to our overall 
relationship with China and to our aspirations for China, 
however, we must continue to press China's leaders for strict 
adherence to their commitments regarding nonproliferation and 
to international human rights and labor norms. Because we now 
have a trade agreement does not mean that we should cease and 
desist from our criticism and our attempts to change their 
policy.
    The administration's patient diplomacy in North Korea I 
think is also beginning to bear some fruit. I do not want to 
overstate what may be the outcome, but I think any reasonable 
observer, objective observer would say things today are better 
than they were yesterday, a year ago, and 5 years ago, and I 
give you a good deal of credit for that.
    But we are relying not only on deterrence, as we continue 
to do in South Korea, but also on a careful reciprocal process 
of engagement between the United States and South Korea. We 
have reduced the chances of war and I think begun to lure North 
Korea out of its shell into a more rational position.
    Madam Secretary, the world remains endlessly complex, and 
our country, for better or worse, is constructively engaged in 
nearly every part and every facet of it, and in such a 
kaleidoscope no one directing U.S. foreign policy can come 
close to batting one thousand, but I believe you have done a 
remarkably good job, and again I thank the chairman for having 
called this hearing, for the way you and he have gotten along, 
because it is one of the--I should not say rare, but one of the 
welcome areas of bipartisan cooperation that this country needs 
more of, and as I said, the past 4 years has brought high hopes 
all round the world.
    One place I did not mention was Israel and the agreement, 
potential agreement between Israel and the Palestinians. You 
and your team have worked tirelessly on this matter and I am 
going to ask you at an appropriate time, although I am supposed 
to be at the funeral of Mrs. Mansfield, which I think I am now 
missing, at this critical juncture I am going to ask you at 
some point whether or not Ambassador Indyk's loss of his 
security clearance will have a negative impact on that process.
    But you will have time to answer that when it gets around 
to my questioning, but again I thank you. You have added not 
only a sense of dignity to the office, which has existed with 
other Secretaries of State, but you have made--by visiting most 
of our states and the way in which you have taken foreign 
policy to the American people you have added a sense of 
reality. You have helped the American people understand better 
what we are doing, and for that we owe you a debt of gratitude.
    The Chairman. Madam Secretary, you may begin at long last.

 STATEMENT OF HON. MADELEINE K. ALBRIGHT, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Albright. Mr. Chairman and Senators, good 
morning, and I am delighted to have this opportunity to appear 
before you this one last time before you head home and I apply 
for membership in what has heretofore been known as the 
fraternity of former Secretaries of State.
    You have my written presentation, which I know you will 
read carefully and make part of the record, and I will keep my 
remarks brief because time is short, and I want to be sure that 
every Senator has a chance to say how much he or she will miss 
me.
    Mr. Chairman, over the past decade we have had to 
reevaluate our entire approach to international affairs in 
light of the geopolitical and technological changes 
transforming our world, and together we have had to adapt our 
institutions, adjust our thinking, and steer a course between 
isolation, which is not possible, and overreaching, which is 
not sustainable. Our goal has been to keep America secure and 
prosperous and free, and our means have included everything 
from military force to quiet diplomacy, with strong statements 
from Chairman Helms and Senator Biden somewhere in between. Our 
strategy has been to build from the center outward, 
strengthening core alliances, engaging Russia and China, 
building peace, repelling threats, and supporting democratic 
transitions in key regions.
    This committee has contributed mightily through its support 
for NATO enlargement, the Nunn-Lugar program, the Chemical 
Weapons Convention, the Freedom Support Act, the SEED program, 
the Helms-Biden bill, Plan Colombia, China PNTR, and many other 
initiatives. And, through your support for reorganization, I 
truly do believe that you have helped shape the architecture of 
the State Department for the 21st century. This committee also 
includes Senators who were right from the very beginning about 
the need to stand up to ethnic cleansing and intolerance in the 
Balkans, and on this point I would just like to comment briefly 
about Sunday's elections in Yugoslavia.
    They provided a critical test of whether that country will 
remain isolated and a prisoner of its own leadership or become 
a part of Europe's democratic mainstream. Despite threats from 
Milosevic's thugs, the opposition waged a courageous campaign 
for change, and now they have won a sweeping endorsement at all 
levels from the Serb people. The authorities in Belgrade used 
every trick in the book to prevent a fair campaign, rig the 
election, and distort the results. In so doing, they have 
fooled no one.
    Milosevic has been repudiated, and claims by his regime to 
the contrary are laughable. Clearly now Milosevic is a figure 
of the past. For too long his lawlessness has weakened 
Yugoslavia, his cronies have robbed Yugoslavia, and his 
mismanagement has all but bankrupted Yugoslavia. Given this 
record of failure, it is no wonder that the democratic forces 
have grown in unity and strength. They have earned the 
encouragement of the international community.
    The road ahead will not be easy, and so our message now and 
in the future must be unified and clear. Yugoslavia belongs in 
Europe as a free and independent state with a normal economy, 
democratic institutions, and a government that neither fears 
nor is feared by its people. Under Milosevic, there is nowhere 
Yugoslavia can go. Under democratic leaders, there is no limit 
to what the Yugoslav people may accomplish.
    Mr. Chairman, whether one serves as a Cabinet Secretary or 
as a Senator, we are all acutely aware that we only occupy 
temporarily the chairs of responsibility in American 
Government, but we know as well that America's responsibilities 
are permanent. Upon taking office, we inherit from our 
predecessors a mixed bag of opportunities and dangers, 
unfinished business, and commitments that must be kept. During 
our time, we devote all of our energies to clearing the in-box 
and fixing the hardest problems, but we labor every day knowing 
that when the time comes to leave, our successors will have 
plenty to do. The basic continuum does not change, but most 
everything else does.
    Twenty years ago, when American diplomats sat down with 
their counterparts overseas, the agenda was dominated by cold 
war concerns, and America's interests were measured primarily 
by the single yardstick of superpower rivalry. Today, our 
agendas are far broader, and so are the demands we place on our 
diplomats and on others. The United States is the most powerful 
nation in the world, and yet when I sit down with the Foreign 
Ministers of even very small countries, I often have more to 
ask than to give. Will they change their behavior, will they 
support us in a number of policies?
    This reflects the reality that American diplomacy in the 
21st century ranges across almost the full spectrum of human 
activity. In the past 4 years, I spent most of my time on big-
ticket issues of security, war, and peace, but I spent some of 
my time on everything, from the war against AIDS, to explaining 
our position on biotechnology, to trying to crack down on the 
trafficking of human beings. Our Nation's interests and 
responsibilities and reach are truly global, and that problems 
abroad, if left unaddressed, will all too often come home to 
America.
    This past week we named the State Department after 
President Truman, one of our greatest international leaders, 
but we cannot forget that half a century ago we backed our 
leadership with resources. Today, even if you exclude the 
Marshall Plan's peak year, we only invest about one-seventh as 
much of our budget on foreign affairs as we did when Mr. Truman 
was President.
    This fall, some in Congress want to cut our budget even 
further, and I hope that you will stop them, because the 21st 
century is no time for America to retreat. Congress should 
approve the President's full request for international affairs. 
The entire amount is equal to only about 1 penny of every 
dollar the Federal Government spends, but it will make an 
enormous difference to the ability of the next President and 
Secretary of State to ensure the security of our communities, 
the prosperity of our families, and the freedom of the world.
    In closing, Mr. Chairman, and Senators, I want to reiterate 
the depth of my pride and the sense of honor I have had in 
representing the United States of America, first at the United 
Nations, and now to the world. Our country, like any other, is 
composed of humans and is, therefore, flawed. We are not always 
correct in our actions or judgments, but I know from the 
experience of my own life the importance and rightness of our 
country's ideals. I have seen first-hand the difference that 
our actions have made and continue to make in the lives of men, 
women, and children on every continent, and I believe 
profoundly in the goodness of the American people and in the 
goodness of American power, and my faith in the future is 
grounded like a rock in my belief in America. This land has 
given me so much, and I cannot hope to repay it, but I will 
always be grateful to President Clinton and to this committee 
for allowing me the opportunity these past 7 3/4 years to give 
it a try.
    Senators, your friendship and support has been 
immeasurable, and I salute you. For your hospitality today I 
truly thank you, and for the opportunity to continue to work 
with you until the very last minute I want to express in 
advance my heartfelt appreciation.
    I will be happy to answer questions.
    [The prepared statement of Secretary Albright follows:]

            Prepared Statement of Hon. Madeleine K. Albright

    Mr. Chairman, Senators, good morning. I am pleased to have the 
opportunity to see you all again.
    This late in the session, I see little value in duplicating the 
rather encyclopedic statement I presented earlier in the year. Instead, 
I would like to restrict myself to three main points.
    First, although there are only a few days left in this Congress, 
and only a few months in this Administration, there remains 
considerable work to be done. The world does not stand still, even for 
American elections. Between now and January, we can expect significant 
developments in key regions, and we prepare constantly to deal with the 
unforeseen.
    During this time of transition, I ask your help in providing the 
kind of bipartisan support for U.S. leadership that has characterized 
our nation at its best, and that American interests constantly demand.
    Second, I would like to highlight once more the importance of 
obtaining adequate resources for our international operations and 
programs. The next President, of whichever party, will be expected to 
provide strong leadership. But it takes money to forge peace, prevent 
proliferation, dismantle nuclear weapons, defeat drug cartels, counter 
terrorists, promote U.S. exports, spur development, strengthen 
democracy, enhance the rule of law, fight pollution, combat AIDS and 
otherwise defend America's interests and values around the world.
    America's capacity to lead is not a partisan issue; it's a 
patriotic issue. At the moment, Congress is proposing to slash roughly 
$2 billion from the President's budget requests for international 
operations and programs. If these plans prevail, the next President 
will take office with his foreign policy bank account depleted and his 
ability to respond to changing world events gravely impaired.
    The 21st Century is no time for America to retreat. The cuts 
proposed in such key areas as security for our diplomatic personnel, 
nonproliferation, counter-terrorism, peacekeeping, family planning and 
foreign military financing are not simply disappointing; they are 
dangerous. Congress should approve the President's full requests for 
international affairs. The entire amount is equal to only about one 
penny for every dollar the Federal Government spends. But it makes an 
enormous difference to the security of our communities, the prosperity 
of our families and the freedom of our world.
    Finally, Mr. Chairman, I would like to review briefly some of the 
major foreign policy accomplishments that resulted from this 
Administration, this Committee and this Congress working together the 
past few years on behalf of America, and also to take a look at where 
we are headed as the new century begins.
    When President Clinton took office, our nation was beginning an 
historic re-evaluation of its entire approach to international affairs 
in light of the geopolitical and technological changes that were 
transforming our world.
    Our goal was to make the most of the opportunities opened up by the 
prospects for East-West cooperation, while coping with the accompanying 
disruptions and preparing to meet emerging threats.
    To succeed, we had to resist both the temptation to retreat from 
international affairs, and the compulsion to become involved in every 
crisis and conflict. We needed to steer a steady course between 
isolation, which is not possible in our era, and overreaching, which is 
not sustainable.
    We had to replace the Cold War foreign policy framework with a new 
framework, able to meet the demands of the new century, including 
effective public diplomacy, and make full use of every available 
foreign policy tool.
    Together, Mr. Chairman and members of the Committee, I believe we 
have made great progress.

                   INTERNATIONAL ECONOMIC LEADERSHIP
    Consider, for example, that eight years ago, America was viewed 
widely as a drag on global economic growth, because our budget deficits 
were huge and our economy sluggish. Today, those deficits are gone; our 
people are prosperous; our economy is the world's most competitive; and 
our international economic leadership has been fully restored.
    America's strong economy and the Administration's support for 
reform helped the world navigate successfully through the worst 
financial crisis since the Great Depression. We have worked to make the 
international financial system more effective by placing greater 
emphasis on fighting corruption, creating transparency, and encouraging 
investments in people. We have tried to make the global economy more 
inclusive through targeted debt relief, helping developing countries 
build the capacity to meet WTO commitments, and working with Congress 
to enhance trade opportunities for Africa, Central America and the 
Caribbean.
    We have worked with American business, farming and labor 
representatives to make world markets more equitable by negotiating 
beneficial trade and investment agreements, supporting core worker 
standards, and striving to outlaw commercial bribery and ensure the 
protection of intellectual property and other legal rights.
    We have negotiated dozens of Open Skies and other civil aviation 
agreements that have benefited American communities, businesses and 
travelers.
    The result is a world economy that is strong and growing, with the 
United States as its dynamic center; and an international economic 
agenda aimed at broadening the benefits of growth both within and among 
societies.

                       LEADING FOR A SAFER WORLD
    In 1993, our most urgent security objective was to ensure the 
control and safe handling of weapons of mass destruction in the former 
Soviet Union.
    Since that time, with strong support from this Committee, the 
Administration has gained the removal of nuclear arms from three former 
Soviet Republics; helped deactivate thousands of nuclear warheads; 
strengthened the security of nuclear weapons and materials at more than 
100 sites; and purchased more than 60 tons of highly-enriched uranium 
that could have been used by terrorists or outlaw states to build 
nuclear weapons.
    We have also provided opportunities for tens of thousands of former 
Soviet weapons scientists--including chemical and biological weapons 
experts--to participate in peaceful commercial and research ventures at 
home rather than take their expertise to potentially hostile states.
    Despite these steps, the job of preventing ``loose nukes'' and 
other proliferation dangers is far from complete. Russia's record on 
nuclear and missile exports remains mixed, whether for lack of 
capability or lack of will. That's why nonproliferation remains among 
our highest priorities in dealing with Russia at every level from the 
Presidential to the technical.
    And it is why so much of our assistance to Russia is used for 
programs that reduce the chance that weapons of mass destruction or 
sensitive missile technology will fall into the wrong hands.
    For example, funds from our Science Center program helped develop a 
kidney dialysis capability that is being further developed and 
commercialized through an Energy Department program. By providing 
hundreds of jobs for former weapons scientists, this program is helping 
to downsize Russia's closed nuclear cities and make Americans safer. It 
is both disturbing and puzzling, therefore, that Congress is proposing 
to reduce funding for the Science Centers by fifty percent.
    I urge Congress to support the President's request for 
nonproliferation programs in their entirety, including the Science 
Centers and the nuclear safeguards system of the International Atomic 
Energy Agency.

                  TOWARDS A EUROPE ``WHOLE AND FREE''
    In 1993, skeptics were saying that the Trans-Atlantic link would 
surely weaken in the post-Cold War world, and that NATO would lose 
relevance in the absence of its traditional unifying rationale.
    Here again, with your help, we have proven those skeptics wrong. We 
have worked steadily with the European Union to broaden our 
partnership, develop joint responses to global challenges and fast-
breaking crises, and support its plans for enlargement.
    We have joined in strengthening the Organization for Security and 
Cooperation in Europe, agreeing last November on a new Charter for 
European Security.
    We have encouraged integration and cooperation through such 
measures as our Northern Europe Initiative and our Southeast European 
Cooperative Initiative.
    And we have joined other Alliance leaders in strengthening NATO 
through the admission of three new members, and the adoption of a plan 
to help other aspiring Allies prepare for possible entry, and have 
provided military assistance to aid these countries in reaching their 
accession goals.
    During the 1999 Washington Summit, President Clinton and his 
counterparts adopted a revised Strategic Concept, vowed to develop the 
capabilities required to respond to the full spectrum of threats NATO 
may face, deepened NATO's partnerships with Europe's other democracies, 
and agreed to strengthen the European pillar of the Alliance in a way 
that bolsters both Alliance effectiveness and Trans-Atlantic ties. Now 
NATO and the EU are in the process of forging an historic partnership 
to just that end.
    But NATO did more during the 1990's than prepare. It also acted.
    When President Clinton took office, war was raging in the Balkans, 
where a UN peace operation was failing, and atrocities were being 
committed on a daily basis. Many argued that America should look the 
other way and hope the fighting would simply burn itself out.
    But history warns us that in this region there is no natural 
firebreak to conflict. So when diplomatic options were exhausted, the 
Administration and many Members of this Committee called for NATO 
airstrikes to help end the war in Bosnia. And when Slobodan Milosevic 
launched a campaign of terror in Kosovo, NATO launched a campaign to 
stop him.
    This was not simply a humanitarian intervention. President Clinton 
was making good on a solemn pledge given by President Bush in 1992 that 
America would respond if Milosevic used force to repress the people of 
Kosovo.
    NATO was proving it could act with unity and resolve to defend 
European stability.
    And together, we were reinforcing the principle that massive 
violations of human rights cannot be ignored; they must be opposed.
    During the past fourteen months in Kosovo, a million refugees have 
returned, schools and health services have reopened, a market economy 
has begun to function, civilian police are being trained and the KLA 
has been demilitarized and disarmed. The process of strengthening local 
autonomy will continue with the municipal elections scheduled for next 
month.
    We did the right thing in Kosovo, but the job is far from finished. 
To talk about leaving prematurely, as some now do, is to suggest 
weakness in a region where weakness still attracts vultures. Our 
purpose in Kosovo is not simply to punch a time clock and move on; it 
is to replace the rule of force with the rule of law. So that when we 
do leave, order will be self-sustaining, democracy will have taken 
hold, and our troops can not only come home, but stay home.
    Kosovo is important, but it is only one piece of a much larger 
puzzle.
    After World War II, the Marshall Plan helped establish strong 
democracies in Europe's west. After the Cold War, the SEED program 
helped democracy take hold in Europe's center. Now, after years of 
conflict in the Balkans, we have forged a Stability Pact with our EU 
and regional partners to encourage democracy in Europe's southeast.
    And we are making progress throughout the area, including the 
former Yugoslavia.
    In recent years, Bosnia has held fair, competitive elections at 
every level. Croatia has made a national U-turn away from extremism and 
towards integration with the West. Slovenia, Macedonia and Montenegro 
have elected democratic leaders.
    Even in Yugoslavia, democratic forces are becoming stronger. 
Despite threats from Milosevic's thugs, they have waged a courageous 
campaign for change, kindled hope among the Serb people, and brought 
closer the day we can welcome all of Yugoslavia into the democratic 
community. As this is written, we awaiting the final results of the 
September 24 elections.

             SECURITY AND DEMOCRACY IN ASIA AND THE PACIFIC
    Mr. Chairman, eight years ago, there were many doubts in Asia and 
the Pacific about America's willingness to continue playing a strong 
regional role in the aftermath of the Cold War. These doubts have been 
put to rest.
    There can no longer be any question about the level of American 
commitment to, or interest in, Asia. President Clinton has visited 
there more often than any other President. I have visited more 
frequently than any previous Secretary of State.
    With our allies and partners, we have weathered the financial 
crisis while encouraging financial reform. We have upgraded and 
modernized our security ties with our ally Japan and developed a robust 
Common Agenda for action on global issues.
    We have welcomed South Korean President Kim Dae-jung's engagement 
policy with North Korea, and will resume tomorrow our own discussions 
with Pyongyang on issues of concern to the international community, 
including nuclear programs and missiles.
    Our relationship with China remains both important and complex. I 
want to congratulate Members of both Houses of Congress for supporting 
legislation to grant Permanent Normal Trade Relations (PNTR) to that 
country. This was the right vote economically because it will enable 
American farmers, ranchers and businesspeople to gain greater access to 
China's market, and to do so under international rules about what is 
fair. It was the right vote from a security perspective because it 
encourages China's integration into the international system. And it 
was the right vote for the future because it will help to open China up 
to new influences and ideas.
    Although the PNTR issue has garnered much attention, the other 
aspects of our relationship with China have not been neglected. We have 
continued to press Beijing to bring its policies and practices into 
line with international nonproliferation norms. We have encouraged the 
resumption of its dialogue with Taipei. We consult regularly regarding 
developments on the Korean Peninsula. And we have been firm and 
persistent in raising our concerns about human rights, including 
religious and press freedom, and respect for the unique religious, 
cultural and linguistic heritage of Tibet.
    In Southeast Asia, we have developed a bilateral trade agreement 
with Vietnam, pressed hard for a democratic dialogue and respect for 
human rights in Burma, and assisted the UN mission in East Timor. We 
have also been the largest bilateral donor to the forces of civil 
society in Indonesia as that key nation struggles to build stability 
and prosperity through its promising but extremely fragile democracy.
    In South Asia, President Clinton's historic trip last spring, and 
Prime Minister Vajpayee's recent return visit here, have helped open a 
promising new chapter in our relations with India, the globe's largest 
democracy. India can be an important partner on issues ranging from 
world peace to global climate change, and from cooperation in exploring 
the new frontiers of science to combating humanity's oldest plagues, 
such as poverty and disease.
    At the same time, we have not forgotten our other friends in South 
Asia, including Pakistan. We are keeping open channels of communication 
to Islamabad, most recently in my meeting at UN General Assembly with 
Pakistan's Foreign Minister Sattar. We continue to urge Pakistan and 
India to observe the ``four R's'' articulated by President Clinton in 
both countries in March: restraint, respect for the Line of Control in 
Kashmir, rejection of violence, and renewal of dialogue. We will keep 
working, publicly and in private, to ease tensions and reduce the 
nuclear threat in this vital part of the world.

                     THE COMMUNITY OF THE AMERICAS
    In our own hemisphere, the Summit of the Americas process has 
generated unprecedented level of cooperation in support of democracy, 
development and law. From Argentina to Alaska, we are now pursuing a 
common agenda towards more open economies, fighting poverty, improving 
education, respecting human rights, and strengthening the rule of law.
    We have also given close attention to our key bilateral 
relationships.
    For example, I was pleased last month to have the opportunity, 
along with President Clinton, to meet with Mexico's President-elect 
Vincente Fox. The growth of democratic pluralism in our southern 
neighbor is welcome, as is the President-elect's desire to explore 
fresh opportunities for cross-border cooperation.
    Also in August, I had a chance to visit six countries in South 
America. I conveyed a strong message of support for strengthening 
democratic institutions, broadening economic opportunity, and enhancing 
regional cooperation in the fight against illegal drug trafficking.
    In this connection, I want to thank Members of this Committee for 
supporting our supplemental request to assist President Pastrana's Plan 
Colombia. Every country, not only in our hemisphere, has a stake in 
this Plan's success. Obviously there are no easy answers in Colombia.
    Illegal armed groups from the left and right feed off the narcotics 
trade and run roughshod over the rights of civilians. It will take more 
than talk to defeat the drug thugs. But at the same time, there must be 
an economic plan, a peace program, a commitment to human rights and an 
effort to prevent conflict from spreading across national borders. 
President Clinton, Speaker Hastert, Senator Biden and I expressed 
strong support for such a comprehensive approach during our visit to 
Colombia last month. I hope this kind of approach will continue to find 
bipartisan support in our country for years to come.
    In Peru, President Fujimori's announcement that he will call new 
elections and deactivate the National Intelligence Service is welcome 
and provides an opportunity to strengthen Peruvian democracy. The ways 
and means of achieving these goals, including the appropriate date for 
elections, are for Peruvians to decide. The appropriate role for the 
international community is to urge parties to return to the OAS-
sponsored dialogue on democratic reform and to cooperate in devising 
electoral procedures that are open, orderly, free and fair. It is vital 
that President Fujimori meet the commitments he has made to his people. 
It is also important that other participants in the political process 
come together in support of democratic norms, and on behalf of policies 
that will unite, rather than divide, the Peruvian people.

                        A NEW APPROACH TO AFRICA
    The Clinton-Gore Administration has devoted more time and attention 
to Africa than any of its predecessors.
    Our approach has been based on two overriding goals. The first is 
to integrate Africa more fully into the global economy, through the 
promotion of democratic reforms and the resolution of destabilizing 
conflicts.
    The second is to work with African leaders to combat transnational 
security threats including terrorism, illegal drugs, crime and disease.
    On the economic side, we have supported debt relief for the most 
heavily-indebted reforming countries, requested and obtained higher 
levels of development assistance, crafted an Africa. Food Security 
Initiative, responded rapidly to humanitarian disasters such as the 
recent floods in Mozambique, and worked with Congress in win approval 
of the Africa Growth and Opportunity Act.
    Diplomatically, we have lent support to regional and United Nations 
efforts to conclude a comprehensive peace between Ethiopia and Eritrea; 
end fighting in the Democratic Republic of Congo; achieve a viable 
internal settlement in Burundi, halt the bloodshed and violations of 
basic human rights in Sudan, and restore stability to Sierra Leone.
    Through the Africa Crisis Response Initiative, we have sought to 
enhance the region's indigenous peacekeeping capabilities. We have been 
the largest donor to both ECOMOG and the OAU Conflict Management 
Center.
    With strong support from Members of this Committee, and personal 
leadership from the President and Vice-President, we have substantially 
increased our investment in what must be a multi-year, around-the-clock 
campaign not only in Africa, but around the world to prevent the spread 
of HIV/AIDS.
    We have developed innovative counter-terrorism, counter-crime and 
counter-narcotics strategies for Africa, and signed an agreement this 
past summer to establish a regional law enforcement academy in 
Botswana.
    And as President Clinton's recent trip indicates, we have placed 
special emphasis on support for the fragile democratic transition in 
Nigeria, Africa's most populous country. Through our Joint Economic 
Partnership Committee, we are helping Nigeria deliver a ``democracy 
dividend'' to its people.

                           LEADING FOR PEACE
    Mr. Chairman, I think Americans may be especially proud in recent 
years of our role in trying to ease historic enmities and help one-time 
adversaries to settle differences peacefully.
    Even when these initiatives do not succeed, they put pressure on 
recalcitrant parties to justify their actions, and give encouragement 
to those seeking a basis for agreements in the future. Congress is a 
full partner in these efforts, both through the counsel you give and 
the resources you provide.
    President Clinton and former Senator George Mitchell deserve 
special credit for the role they played in making possible the Good 
Friday Agreement in Northern Ireland, where centuries of bitterness 
have been supplanted by cooperation and hope.
    And the President deserves praise, as well, for his indefatigable 
efforts on behalf of a Middle East Peace.
    As Members of this Committee are well aware, the prospects for 
achieving an agreement between Israelis and Palestinians this year on 
permanent status issues diminish with each passing day. But at Camp 
David, Prime Minister Barak and Chairman Arafat made unprecedented 
progress on matters they had not before seriously discussed. Since 
then, Israeli and Palestinian negotiators have explored ways to build 
on these gains.
    Like the last miles in a marathon, the final steps towards peace in 
the Middle East are the hardest. But if we were to look back to the 
beginning of the last decade, we would realize how far the parties have 
come toward resolving some of the most intractable, emotional and 
complex issues negotiators have ever had to untangle.
    Together, Israelis and Palestinians have moved far down the road to 
a settlement that would meet each other's core needs, and open the door 
to a period of greater security, prosperity and cooperation than the 
region has ever known. The stakes are too high for them to turn back 
now, or for the United States to reduce in any way its commitment to 
help the parties move further along that road.

                  PROMOTING DEMOCRACY AND HUMAN RIGHTS
    Under President Clinton, the United States has led for prosperity, 
security and peace. We have also led for democracy.
    Today, the world is more free than at any prior period. For the 
first time in history, more than half its people live under elected 
governments. But many democratic regimes are fragile, and require both 
internal reinforcement and outside help.
    That is why, this past summer in Poland, more than 100 nations came 
together for the first time to reaffirm democratic principles and 
ensure that the democratic tide remains a rising tide around the world.
    Our purpose was to initiate a global dialogue on how democratic 
nations can best help each other to strengthen their institutions, 
cooperate within international organizations and combat threats to 
democratic development.
    We are now following up this Community of Democracies initiative 
through discussions with our co-convening partners, deliberations at 
the UN General Assembly, conversations with nongovernmental groups, 
bilateral dialogues with Warsaw participants, and planning for a second 
conference in Seoul in 2002.

                     DIPLOMACY IN THE 21ST CENTURY
    Mr. Chairman, we have been privileged during the past decade to 
witness and help engineer a dramatic restructuring in our national 
security institutions to reflect dramatic changes in the world.
    This Committee has contributed mightily through the FREEDOM Support 
Act, the Nunn-Lugar program, the SEED Act, consent to NATO enlargement, 
the reorganization legislation, the Helms-Biden bill and many other 
initiatives.
    You have also been participants in a process of shifting and 
expanding the focus of American foreign policy.
    Twenty years ago, when American diplomats sat down with our 
counterparts overseas, the agenda was dominated by Cold War concerns. 
And America's interests were measured primarily by the single yardstick 
of the superpower rivalry.
    Today, our agendas are far broader and so are the demands we place 
on our diplomats and on others. The United States is the most powerful 
nation in the world. And yet, when I sit down with the Foreign 
Ministers of even very small countries, I often have far more to ask 
than to give.
    My interlocutor may seek a larger USAID program, debt relief or 
technical assistance to help respond to one problem or another. But I 
may ask for cooperation and help on a long list of issues, from 
countering terror and interdicting drugs to economic reform and human 
rights.
    This reflects the reality that, in our era, foreign policy is no 
longer comparable to a game of chess. Now, it's more like a game of 
pool, with each action setting off a chain reaction that rearranges 
every ball on the table. We are more mobile, but so are weapons, 
criminals, viruses and pollutants. In the West, populations are older, 
but almost everywhere else they are younger, and pressures for 
migration will accumulate if those in less-advantaged countries cannot 
build decent futures at home. Today, everything is connected. A society 
weakened by disease will find it harder to resist the predations of 
international criminals or to cope with environmental stress.
    Because of our global interests, responsibilities and reach, no 
country has a greater stake than America in an international system of 
institutions and laws that works to improve the lives of people 
everywhere.
    That is why we have been right to devote so much energy to 
reforming and improving international organizations, including the 
United Nations. And why we should come together now and in the future 
to support their vital work by meeting our obligations and striving 
with others to strengthen their capabilities.
    In this way, we can help to blaze new trails of cooperation on what 
are commonly referred to as global issues. And thereby respond to 
opportunities and threats in a manner essential to America's long-term 
security and prosperity.
    These challenges include protecting our planet by limiting 
greenhouse gas emissions; securing safe water supplies; halting 
desertification; promoting biodiversity; and negotiating a ban on the 
world's most persistent and toxic pollutants.
    Equally vital is the challenge of protecting people by caring for 
refugees, advancing the status of women and girls, preventing the 
exploitation of children, saving lives through family planning and 
reproductive health care services, and helping law-abiding people 
everywhere to be more secure.
    A good example of this last imperative is our strong backing for 
the International Criminal Tribunals for Rwanda and the former 
Yugoslavia, and our support for special judicial mechanisms to achieve 
accountability for atrocities in places such as Cambodia and Sierra 
Leone. We have also been working with others to collect all the 
evidence we can to support a possible future prosecution of Saddam 
Hussein. The world will be a better, safer and more just place if those 
who violate international humanitarian law are required to answer for 
their crimes.
    The world will also benefit if nations close ranks against the 
threat posed by international criminal organizations. To this end, the 
Convention against Transnational Organized Crime was finalized last 
July with strong U.S. support. The Convention would require 
participating countries to criminalize such activities as money 
laundering, corruption of public officials and obstruction of justice.
    Next month in Vienna, negotiators will meet to complete three 
protocols related to this Convention, on migrant smuggling, trafficking 
in persons, and the illicit manufacturing and sale of firearms. If 
adopted, these instruments can provide powerful new tools in the fight 
against organized crime.
    We can also help by approving strong and smart domestic 
legislation, such as that developed by Senators Brownback and 
Wellstone, against trafficking in human beings.
    On the surface, the many issues and accomplishments discussed above 
may appear to comprise a very disparate list. But in our era, 
democracy, prosperity and security are intimately related. The 
connecting thread is our goal of encouraging nations everywhere to come 
together around basic principles of political freedom, economic 
opportunity and the rule of law.
    In this process, there are no final victories. Most of our efforts 
remain works in progress. Protecting America's interests is a 24 hour/7 
day a week/365 day a year mission that has no completion date.
    But our interests are served with every successful democratic 
transition, every conflict resolved without violence, every advance 
toward a more open and transparent world economy, every example of 
justice served, and every increase in respect for basic human rights.
    I cannot conclude without repeating a request I have made every 
time I have appeared before this Committee. Please approve the 
Convention to Eliminate All Forms of Discrimination Against Women. If 
you're thinking about a goodbye present, Mr. Chairman, this would do 
fine.
    The Senate also has before it two protocols negotiated earlier this 
year in Geneva, one on child soldiers and the other on the sexual 
exploitation of children. I urge the Senate to give its advice and 
consent to these treaties before going home for the year.
    I also want to make a plea for passage of legislation to re-
authorize the Visa Waiver program, which has been approved by the House 
and is now held up in the Senate. This program is essential to 
literally millions of American and foreign travelers, to our 
transportation and tourist industries, and to our relations with key 
allies and friends.

                            PARTING THOUGHTS
    Mr. Chairman, and Senators, it has been a great privilege and--more 
often than not--a real pleasure to have worked with you these past 
seven and a half years. I cannot tell what the future may hold. But I 
leave you with these thoughts.
    First, I believe very genuinely in the importance of bipartisanship 
in foreign policy. This is not simply because, as I have said, that 
upon joining the State Department I had my own partisan instincts 
surgically removed. It is because our role in the world is just too 
vital--to us, to our many allies and friends, and to our children--to 
be compromised for short-term political gain.
    Second, there must be a true spirit of partnership between the 
Executive Branch and Capitol Hill. It is a tribute to Members of this 
Committee that on most issues, most of the time, we have had that. When 
we have disagreed, we have done so agreeably. And when we have acted 
together, we have usually prevailed. The beneficial results of our 
partnership provide much of the substance of my testimony today.
    Third, I hope this Committee shares my pride in the people--Foreign 
Service Officers, Civil Service and Foreign Service Nationals--who work 
every day, often under very difficult and dangerous conditions, to 
protect our interests and tell America's story around the world. I have 
never been associated with a more talented, professional or dedicated 
group of people. We need a first-class military, and we have one. We 
also need first-class diplomacy, and we should give those who represent 
our nation abroad all the support and respect they deserve.
    This means that we simply must make a far greater commitment of 
resources to our international operations and programs. At this point 
in the Administration, I hope you recognize that this is not special 
pleading. There are only a few days left in this Congress, and I 
recognize there are limits to what even the Members of this prestigious 
Committee can accomplish.
    But I urge you to use your influence and eloquence to help give 
this Administration and the next the kind of support they will need to 
exercise strong American leadership around the globe.
    Finally, I want to reiterate to you the depth of my pride and the 
sense of honor I have had in representing America first to the United 
Nations and now to the world.
    Our country, like any other, is composed of humans and therefore 
flawed. We are not always correct in our actions or judgments. But I 
know from the experience of my own life the importance and rightness of 
our nation's ideals. I have seen first-hand the difference that our 
actions have made and continue to make in the lives of men, women and 
children on every continent. I believe profoundly in the goodness of 
the American people. And my faith in the future is grounded like a rock 
in my belief in America.
    This country has given me so much; I cannot hope to repay it. But I 
will always be grateful to President Clinton and to this Committee for 
allowing me the opportunity these past seven and a half years to try.
    Senators, for your friendship and support, I salute you. For your 
hospitality today, I thank you. And for the opportunity to continue 
working with you in the weeks immediately to come, I want to express in 
advance my heartfelt appreciation.
    And now, I would be pleased to respond to any questions you might 
have.

    The Chairman. Fifteen minutes. We are going to do the best 
we can. Five minutes per Senator, and I think we will just 
continue to ask questions after 11:30, if it meets the approval 
of all the Senators. I do not like playing games with whether 
committees can meet and how long they can meet.
    Madam Secretary, since the Russian President Putin assumed 
the top post in Russia, basic human rights and democracy have 
suffered there, the Kremlin's indiscriminate and brutal war 
against the Chechnyan people continues today, press freedoms 
have been curtailed. Compounding matters, this month the Moscow 
Times documented extensive fraud in the new President's 
electoral victory, including the sudden and unexplained growth 
of 1.3 million registered Russian voters in the 3 months prior 
to the March Presidential election.
    In your view and that of your administration, did he win 
that election fairly, or did he steal it?
    Secretary Albright. Mr. Chairman, I believe that he won it 
fairly, because nearly 70 percent of eligible voters 
participated. The election showed that basic democratic 
processes and institutions are taking hold in Russia, and that 
the Russian citizens are comfortable making their voices heard 
at the ballot box. The OSCE, which does a lot of monitoring, 
called the election--and I quote--``a massive expression of the 
will of the Russian people.'' It did cite some concerns, as we 
have also, about unbalanced media coverage and pressure on the 
independent media. I do think that there is question about the 
fact that President Putin talks about the importance of an 
independent media but in fact is putting a great deal of 
pressure on the media.
    Putin was the most popular candidate, and the reason for 
that, and I think I have spoken about this here before, is that 
the Russian people had a sense that there was chaos, and they 
wanted order. The Russian word, poriadok, was kind of the buzz 
word in Moscow. I think that the ``order'' he offered was 
something appealing to the Russian people. As we observe what 
is going on in Russia, I think we have to watch carefully that 
it is order with a small ``o,'' and not order with a capital 
``O,'' but I do believe that he was elected fairly.
    The Chairman. The Chechnyan Resistance wrote you a letter 
sometime back asking you to endorse their five-point peace 
proposal for resolution of the conflict there. Should the 
United States endorse this proposal?
    Secretary Albright. Well, I think that what we have done, 
in fact, is raised very many of the same points that they have. 
I have said in any number of places that there has to be a 
political solution to the situation in Chechnya, that it cannot 
be solved militarily, that there needs to be access for the 
international agencies, and I have spoken about this to my 
counterpart, Foreign Minister Ivanov many times, and the 
President has spoken to President Putin.
    We have to make very clear that we think the kind of wanton 
acts against the civilian population are unacceptable, and that 
basically they need to find an interlocutor with whom they can 
deal on the Chechan issue. It is coming back in a way that I 
think President Putin is going to have to deal with it 
politically, as the military solution does not work.
    The Chairman. One of the most courageous democratic 
activists in the world today suffers under house arrest in 
Burma. Now, I know that the United Nations and our allies and 
you have eloquently raised concerns regarding the fate of that 
wonderful lady. On July 19, the Senate passed a resolution, and 
so forth.
    It calls for the United States to seek multilateral 
support. Could you please inform the committee of efforts made 
by the administration to gain concrete measures of support from 
our allies in Asia and Europe, and what has been the response?
    Secretary Albright. Mr. Chairman, I think this is one of 
the saddest cases, where 10 years after she and her party were 
elected they are not allowed to take their rightful position, 
and there is no dialog between her and the Burmese Government.
    We have raised this issue consistently and systematically. 
President Clinton raised it in his opening address to the 
Millennium Summit at the United Nations. I have made it a point 
in every single meeting that I attended to to try to get a 
joint statement out of people in terms of support of Aung San 
Suu Kyi.
    What happened was that they did release her temporarily 
after they had her under virtual house arrest. They have gone 
back again to denying her free movement. I can assure you that 
I will not let this issue drop. We are trying to make the 
others move. It is not easy.
    The Chairman. Good. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. Madam 
Secretary, welcome. I am pleased to see you before the 
committee.
    As you know, I strongly share your view that we are 
devoting inadequate resources to meeting our international 
responsibilities, and I think it has severely handicapped the 
ability to carry out a constructive American foreign policy in 
the international arena.
    You obviously have spoken about that a number of times, and 
in fact your statement here today again emphasizes it. I think 
it might be helpful if you would give us some specific examples 
of where a shortage of commitment of resources has handicapped 
our ability to carry through a policy that would serve our 
national interests.
    Secretary Albright. Yes. Thank you very much. Let me just 
make clear that the budget we submitted in the first place is 
bare bones in my view. We operate within an overall system, and 
when we asked for $23 billion plus, it was a very careful 
assessment. I personally have gone through the budget review in 
the State Department for each of the sections. We were then cut 
by over $2 billion, which is a reduction of nearly 11 percent 
of what we asked for.
    Now, since we are operating at something that already I 
think is low, I have said, and you will appreciate this, that 
we are not only robbing Peter to pay Paul, but we are robbing 
Paul also. I think the problem here is that we have to keep 
shifting in order to be able to achieve what we want. Let me 
just say that if the current cuts stand, it would, for example, 
mean reducing U.N. peacekeeping by more than a third and thus 
threaten the success of our operations in Kosovo, East Timor, 
and Africa.
    Now, I hope we have more chance to talk about peacekeeping, 
but I happen to think that peacekeeping, well done, is a 
burden-sharing operation and allows the United States, which is 
not involved in most peacekeeping operations, to deal with 
serious issues. We cannot just be stuck with doing it ourselves 
or doing nothing at all. Congress' proposed budget would mean a 
one-third cut.
    The cut would also jeopardizes essential security 
improvements in U.S. diplomatic facilities. We have all been 
talking about the horrors of the bombings a couple of years ago 
in Kenya and Tanzania. We have been systematically trying to 
upgrade our diplomatic facilities. It would also limits support 
for what is happening in the Balkans, the Newly Independent 
States, and the key democracies. We can talk further about 
Nigeria and Indonesia, how much we have had to cut. Congress' 
budget would slash our funds for nonproliferation and 
antiterrorism programs, cripple our debt relief programs, 
reduces funding for international banks, and weaken our 
programs to boost U.S. trade.
    I could go on, but those are the major problems. You cannot 
cut this much out of our budget, when you are already operating 
with less--with only a penny out of every Federal dollar--I 
think it is very bad. I happen to believe we need a strong 
defense budget. I have never argued against that. But our 
diplomacy and our diplomats are the first line of defense, and 
I think we underfund at our own jeopardy.
    Senator Sarbanes. Well now, a lot of people emphasize 
burden-sharing, and they press the point that our allies ought 
to be making contributions in these various endeavors, but it 
is my understanding that the inability of the United States, as 
it were, to meet its share in various international 
institutions or in various joint efforts is in effect resulting 
in other countries not coming forward with their share, so to 
speak.
    So, as a consequence, the international community ends up 
committing less resources than it might otherwise do, so that 
if the United States were better able to act as a catalyst in 
those situations, we would be able to attract contributions 
from other countries as well and have an international effort 
that was much more substantial in addressing some of these 
problems. Do you perceive that problem?
    Secretary Albright. Absolutely, Senator, because I have 
seen this in various pledging conferences. We are like a 
magnet, and I think they want to know how much we have given. I 
think there is also a misapprehension here. We all know how 
important it is to the American people and to you that we are 
not the sole bearer of financial responsibility, and we are 
not. As far as Kosovo is concerned, for instance, or the 
Balkans, the Europeans are truly paying the lion's share of it. 
We can give you some facts and figures on it. I think they do 
not see that we are participating but we are, in fact, 
providing the seed money for force multiplying in terms of 
cash.
    Let us take Plan Colombia as another example. We put money 
up, but the Europeans are now pledging in donors conferences. 
Spain itself has put up $100 million. We have international 
responsibilities, and I think our being a part of something 
creates a larger fund of money, so I believe it is essential 
that we do our share in order to get more from the others.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Secretary Albright, I join Chairman Helms and Senator Biden 
in the comments they have made about your remarkable service 
and the period of cooperation with the committee, and I 
appreciate that.
    I have appreciated serving with you on the National 
Endowment for Democracy board, and likewise applauding your 
work at the United Nations.
    I am struck by the questions that Senator Sarbanes has 
asked and your responses. Let me just say that for a variety of 
reasons the amounts of money that have been required for 
American diplomacy for the State Department, for international 
relations simply have not been available.
    I remember, as perhaps you do, after the re-election of 
President Clinton there had been a proposal by the State 
Department for its budget, obvious cuts that were publicly made 
by OMB. I visited with the President and asked him personally 
to reverse OMB, to go to bat for the State Department. 
Obviously you endorsed that idea, and he did, and to some 
extent what had been almost a straight-line secular decline of 
resources, when inflation was factored in, was reversed, at 
least in that year.
    Now, then it resumed, and you are describing today a 
situation which is a dismal one. Perhaps at this point in your 
service, or in the President's service, you are really not 
prepared to answer this question fully, but I would like for 
you at least to begin today.
    Why was the President, or his group, including yourself, 
less effective than you needed to have been in alerting the 
American people to what our responsibilities are, to what we 
should be doing, or co-opting the Congress, persuading us?
    Or, correspondingly, what failures have there been on the 
part of the Congress in failing to understand America's role in 
the world, as you say, our defense budget combined with strong 
diplomacy, with embassies that really do have up to speed 
telecommunications and are equipped really to do the job of a 
competitive America for trade, quite apart from diplomacy.
    This just clearly does not seem to me to be the picture, 
and it is one in which there is a lot of responsibility to be 
shared, but for the moment I perceive that the American public 
as a whole is not alarmed about this debate over the State 
Department or international affairs budget, does not really 
share our particular grief about these situations, although 
people around this table care and so do you.
    You know, what should we do about it, and maybe in your 
memoirs of the experience you will have more to say, but it 
just seems to me that instructing for the next administration, 
whether it be the Vice President of the United States or 
Governor Bush, that they really start off on a different track 
if they are to make headway in what I think is essential.
    Secretary Albright. I think, Senator, you have asked a key 
question about how we operate, and I will give you some 
thoughts, but I will actually do more thinking about it and do 
something about it after this.
    First of all, I would like to say that the President is my 
best friend on this. I have now made a Christmas Eve call a 
number of times and it has brought forth more funds. I think 
his support of the State Department budget has been really 
unbelievable, and I am very grateful to him. The problem I 
think is that the American people got accustomed to a State 
Department budget when we were fighting communism and its goal 
was very clear. Our assistance programs were designed to get 
countries to be our friends versus our being their friends, so 
that when the world was divided into red, and red, white, and 
blue it was easier.
    I think the issues--and I know people get sick of hearing 
this--are complicated and do not seem as threatening to people 
at this time, and we are dealing with a whole host of new 
issues. You, sir, have understood the fact that threat 
reduction in the former Soviet Union is essential to our 
security. That takes money, and the bulk of the money that goes 
to Russia and Ukraine and Kazakhstan has been for that.
    I think our real problem is we have got to stop calling it 
foreign aid. Those are two words that do not go together, and 
the American people do not like them. This is not assistance to 
other countries. This is the way that the United States 
maintains its prosperity. Our prosperity today is dependent on 
other countries also rising and having functional economic 
systems and functional governments. This is not foreign 
assistance. It is assistance to America, and I think we need to 
see it that way, and not see what we do as a give-away program 
or supporting people that we are not interested in. We have 
managed to keep America at peace and prosperous and it takes 
assistance to America to make that happen.
    Senator Lugar. Thank you.
    The Chairman. I have just been advised by the majority 
leader that the opposition to all committees continuing their 
hearings this morning stands, so without objection, as chairman 
I am going to suggest that we are now meeting as a public 
meeting, instead of a hearing. I do not know what the 
distinction is, but one is legal and one is not.
    Senator Wellstone. Mr Chairman.
    The Chairman. Yes, sir.
    Senator Wellstone. I understand what you are doing, but 
could I make it clear to the Secretary that I am in--just to 
support--this is Senator Levin's request, I think, because he 
has not been able to get judges through for years, and I am 
going to have to excuse myself from the hearing out of respect 
for him, even though I understand what you are doing.
    The Chairman. Very well.
    Senator Wellstone. Thank you. I apologize.
    The Chairman. We will miss you.
    Senator Dodd. I gather there is no official record of this. 
Is that what we are doing, that is the distinction?
    The Chairman. Well, no. I intend that--and I think we would 
be remiss if we do not have a record for everything that the 
Secretary says. Now, if there is objection to that, we could 
just have a friendly get-together.
    Senator Dodd. No, I do not want to object to that. I am 
very interested in having the Secretary here, but there is a 
process and procedure which we respect here, and I have been 
victimized by it in the past, and I know that we respect each 
other's right to do so, and I do not want to undercut a process 
here that has been----
    The Chairman. Well, I am not going to debate the Senator 
about it. I think he knows and I know what is going on on the 
floor. There is a concerted effort to confuse and delay and all 
the rest of it.
    What is the will of the remaining Senators? Shall we 
proceed on a hearing?
    Senator Lugar. Mr. Chairman, I think we should proceed, but 
I think Senator Dodd makes the point. We attempted this the 
other day in the Agriculture Committee. We had the Secretary 
present, and we continued to have a very interesting dialog but 
without a court reporter, so that there really was no inference 
that it was an official thing, but we did have, as you say, a 
meeting and a continuing dialog.
    The Chairman. Well, all right. The chair will make another 
suggestion, then. Provided that C-SPAN continues its coverage 
of what was a hearing, we could transcribe from a tape from C-
SPAN the remainder of what is said and done here. So do you 
wish to ask a question?
    Senator Dodd. Well, under those circumstances, Mr. 
Chairman, obviously we do not have any control over C-SPAN. 
They can cover any meeting they want to, but I just in terms of 
maintaining a purity of process that we have had for years and 
years here----
    The Chairman. Well, C-SPAN has been very cooperative with 
us, and I trust if they decide not to be I will have a 
secretary sitting by the TV set taking down every word that the 
Senator----
    Senator Dodd. I am sure she will be delighted, or he will 
be delighted to hear that.
    The Chairman. Seriously, you may proceed, Senator.
    Senator Dodd. Fine, and you are----
    The Chairman. Wait.
    Senator Dodd. Yes, but the court reporter would no longer 
transcribe it.
    The Chairman. That is right.
    Senator Dodd. Thank you, Mr. Chairman. I'll have a 
statement for C-SPAN. I will deliver it to them and they can 
include it, but let me just briefly say to you, Madam 
Secretary, that in so many areas, but going back to the NAFTA 
issue I guess in 1993, it was President Bush that negotiated 
the agreement, but it would not have been passed had it not 
been for the effectiveness of this administration.
    That was before your tenure, but nonetheless an example, I 
guess, of some wise policy decisions, but certainly under your 
tenure the Middle East, the Balkans, Northern Ireland, Korea, 
the demonstration the other day in Sidney of the two Koreas 
marching in together, while we certainly have not resolved the 
issue here, it is certainly an indication of the direction that 
some of our very creative foreign policy has brought us to. It 
certainly did not go unnoticed by the world, so I think there 
is much to commend you and the Clinton administration for 
during your tenure as Secretary of State.
    I do not know whether in 5 minutes I will have time to 
really discuss all of these issues, but let me just raise a few 
of them if I can with you. First of all, Colombia. You have 
raised it already by inference to Plan Colombia. I was 
supportive of the plan. I have great respect for what the 
Colombian people have been through now for years and years, but 
I am worried a bit about this.
    The reports are not good on the human rights front. There 
are now a couple of battalions that have received some warning 
here, two vetted units, 24th Brigade and the 12th, that have 
been suspended from receiving training and aid as a result 
apparently of some human rights violations, the issue of how 
effective these dollars are in terms of dealing with the coca 
production.
    If the Plan Colombia is going to work it has got to be a 
sustained plan, in my view. It has got to be one that we are 
willing to stick to for maybe as long as a decade or beyond if 
it is going to work. At least it seems to me the 
narcotraffickers and others have to have a clear understanding 
that we are committed to this over the long haul. I am worried 
that some of the reports we are getting out of this early on 
are going to undermine this effort, and the September vote in 
Latin America.
    Now, some of that has been changed, I gather, but there is 
a lot of hesitancy among our Latin American allies. I know 
there is some hesitancy in Europe about this.
    But I would like you to give me some idea of where you 
think we ought to be going with Plan Colombia as a new 
administration comes in next year. I would like to review to 
what extent we can build stronger regional support for this 
than presently exists, particularly among the Andean nations, 
so that it is not just a U.S.-Colombian effort here, but one 
that really does involve and enjoys the support of our allies 
and friends throughout the hemisphere. Short of that, I am very 
concerned that this plan will not be sustainable.
    Secretary Albright. Well, I do think the following. I think 
we have done the right thing in having a Plan Colombia that is 
based on what the Colombians came up with. It is a plan by 
President Pastrana which we are supporting.
    I believe it has the right components, and your concerns 
about human rights are our concerns and President Pastrana's as 
well. We have just been down there. President Clinton paid a 
visit and I have gone a number of times. Under Secretary 
Pickering has made it very clear that human rights are an 
essential aspect of the plan, and the Colombians know it, and 
they will pursue this.
    But to answer your larger question, I do believe that this 
has to be sustained, because it is a complex issue, and let me 
focus on the region a little bit, as you have. I took a 
regional trip. I know how nervous they are about the fact that 
there will be spillover from it and that those countries need 
to also have a plan for trying to deal with the problem, and 
part of Plan Colombia does, in fact, give money to some of the 
countries in theregion. Ecuador, for instance, is very 
concerned about its northern border and spillover there, so I 
think we have to see this as not only a way of working with 
Colombia but its neighboring countries.
    I think there is some misunderstanding about how the region 
feels about it. I think they are not eager to give money to 
Plan Colombia themselves, but are supportive of it. At the 
summit in Brasilia they actually came out in support of Plan 
Colombia, and I think they need to see the value of it not only 
for Colombia but for themselves.
    The plan needs its component parts. It has to continue to 
have a central anti-narcotrafficking aspect to it, a human 
rights aspect, a peace process, and an alternative economic 
development plan to it. I think it is a carefully constructed 
plan, but it cannot bring results immediately. If we give up on 
it and do not see it as a longer term program, I think it will 
undermine the region. We have to continue to see it as a 
regional issue.
    Senator Dodd. Thank you.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Madam Secretary, 
welcome. I did not anticipate having coffee and Danish with you 
this morning in our discussion format, but it is OK.
    First, let me echo those who have gone before me in 
expressing my thanks to you and your team, under the able 
leadership of Assistant Secretary Larkin, for their courtesies 
and good work over the last few years. We are grateful. You 
have been an engaged, competent, honest, and faithful public 
servant, and to me that is the highest compliment, so thank 
you.
    I know you would not want to be put in the position to give 
advice to your successor or to the next administration.
    Secretary Albright. It depends.
    Senator Hagel. Well then, that gives me considerable 
license and flexibility with the question.
    The world, as you know as well as anyone, is 
interconnected, and you have expressed that thought succinctly 
this morning in your statement regarding America's role in the 
21st century. We should not abandon our leadership history, and 
future generations will judge us harshly if we should do such a 
thing. You have talked a little bit about budget inadequacies 
and a couple of other specific areas.
    But I would be very interested in your thoughts, 
understanding that there is not one issue, I suspect, that is 
all overriding or all-consuming, but a number, if you could 
frame for this committee what the next administration in your 
opinion should be focusing on in this large, interconnected, 
overhanging big-picture world, that would give this committee, 
or at least this Senator, some direction as to where the next 
administration is going to have to focus some resources, some 
leadership, and some attention.
    Thank you.
    Secretary Albright. Well, let me say I think we always have 
to remember what foreign policy is about, and why we have a 
foreign policy. It is to protect our territory, our people, and 
our way of life. The reason that it is complex is that our 
territory is still between two oceans, but we have porous 
borders to the north and south, and must deal with issues that 
range from top and bottom, so to speak. Therefore we have to be 
concerned about such matters as terrorism, nuclear 
proliferation and the environment.
    Americans travel everywhere now and they need to be 
protected everywhere. We need to work on the rule of law in 
countries so that they can invest properly and on a whole host 
of economic issues that promote prosperity. The American people 
will benefit from this as they travel abroad. Protecting our 
way of life is everything that our foreign policy is all about. 
So, we have to worry about narcotrafficking, and HIV/AIDS and 
various things that know no borders. Those are the larger 
issues that are the new global transnational issues that affect 
foreign policy as never before.
    At the same time, the United States will never be able to 
not focus on our relationships with Russia and China. We also 
have to continue to keep our alliances strong. We have to deal 
with all parts of the world. I think that is where the 
situation is different today. There can be no forgotten 
continents.
    The hardest part about being Secretary of State is to 
prioritize, and I have tried to do that, not always 
successfully, because problems come in from various places. I 
do think that the next Secretary of State has to understand 
that the future is integration of the global system. Our 
prosperity depends on that kind of integration, and our 
resources need to go to make sure that we can follow through on 
programs, that we have the right people in the right places, 
and that our diplomats are at secure facilities.
    It is a very large agenda, but we are a very large and 
powerful country, and the world depends on us. I know that. 
Every day that I sit somewhere behind a sign that says, The 
United States, I do it not only with pride, but with the 
realization that unless the United States is involved there 
will not be a difference. We can make that difference, and 
asking for funds for that is not too much. A penny in every 
Federal dollar is not too much for the most powerful country in 
the world.
    Senator Hagel. Thank you.
    The Chairman. Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman. Madam 
Secretary, always a pleasure to see you. Thank you very much 
for being here today.
    A couple of questions. I will start out with one that has 
direct ties to Minnesota, an incident in Kenya recently. Also I 
have some questions on policy and then some housekeeping 
questions.
    But first of all, dealing with Kenya, back on August 23 
Father John Kaiser was murdered in Kenya. He was a native of 
Minnesota but he had spent 36 years serving a mission in Kenya, 
strongly advocating the human rights of Kenyans, and he was 
against government corruption.
    Now, documents were found on Father Kaiser's body that he 
had intended to hand over to a commission investigating the 
1992 through 1997 tribal clashes of the Great Rift Valley. 
Given the dismal record of the Kenyan security forces outlined 
in the State Department's human rights record and report, I am 
concerned about the integrity of the investigation by the 
Government of Kenya.
    Do you believe that it is probable that a timely and 
thorough investigation of Father Kaiser's murder will be 
completed by the Government of Kenya, or should an independent 
investigation be started as well?
    Secretary Albright. First, let me say that we were shocked 
and saddened by this violent death. Father Kaiser, a courageous 
and tireless advocate of human rights in Kenya, with be greatly 
missed. Massive attendance at Father Kaiser's memorial services 
and an outpouring of public eulogies and letters demonstrate 
the high regard in which he was held.
    Immediately after learning of Father Kaiser's death, U.S. 
Ambassador to Kenya, Johnnie Carson, met with high-level 
representatives of the government of Kenya, to demostrate our 
concern and to urge the government to conduct a complete, 
transparent and credible investigation.
    Days later, three FBI agents arrived in Kenya, at the 
Kenyan Government's invitation, to assist the Kenyan 
authorities with the investigation. The FBI continues to work 
on the investigation today.
    We are monitoring the case of Father Kaiser closely. To 
date, the FBI reports that cooperation between the FBI and 
Kenyan officials has been excellent, and the investigation is 
being conducted in a professional manner. We will keep you 
appraised of the investigation's outcome.
    Senator Grams. OK. I appreciate that very much. Thank you.
    Dealing with a question on the Middle East and the peace 
process, there was a report in the September 22 Jerusalem Post 
that the United States is going to propose ending Israel's 
sovereignty of the whole of Jerusalem by handing the Temple 
Mount over to the U.N.
    Now, the question I would have, Madam Secretary, is this 
true, because as the Jerusalem Post article notes, this is a 
serious break from the past U.S. position that the city's 
status was to be determined through negotiations by the two 
sides, and not something, I believe, that was to be imposed or 
suggested by the United States, so do you have a comment?
    Secretary Albright. Well, first of all there is nothing 
that can be imposed by the United States. We have spent years, 
months, weeks, and hours trying to get the parties to deal with 
each other. We assist in that way and do what we can to help 
move the process forward.
    The reason, we have been saying that there are gaps between 
the positions and that the hard decisions have to be made by 
the leaders themselves, is because the United States cannot 
make existential decisions for either of these parties. So 
whatever is agreed to will be agreed to by the parties. There 
cannot be an American imposition of an agreement. There can be 
American assistance, American suggestions, but I can assure you 
that the only way there will be a comprehensive agreement is if 
both the parties agree to it.
    Senator Grams. So, but are we talking formally or 
informally? Could this be a U.S. idea that is informally put on 
the table, or are we not involving ourselves in at least 
leading the debate?
    Secretary Albright. We are very much involved in helping. I 
can tell you, from having spent more time on this than 
practically any other issue, is that ideas come from a variety 
of places. They are suggested by one of the parties or the 
other of the parties, or outsiders, or other countries. I have 
just spent a lot of time in New York. There are lots of ideas 
out there.
    We are, I have to say, the country that can make a 
difference on this. We have been told that even by countries 
that would like to have a leading role. We are the ones that 
have the ability, to bring the parties together when they make 
the tough decisions.
    Senator Grams. So is President Clinton prepared to do this 
informally, to make this suggestion specifically, of turning 
over the Temple Mount? Is he prepared to make that proposal 
informally?
    Secretary Albright. The President is looking, with the 
parties, for a variety of ways to resolve all the issues, and I 
think it is only fair to say there are many ideas out there. At 
this stage there is no American proposal on the table. We are 
looking at ways that we can be of assistance.
    Senator Grams. All right. I have another line of 
questioning but my time is nearly up. I will wait for another 
round. Thank you, Mr. Chairman.
    The Chairman. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman, and welcome to 
the committee. We are delighted to have you here again, and do 
a superb job, as usual. It has been a pleasure to be here on 
the committee and working with you, Madam Secretary.
    I want to turn your attention to Iraq, if I could, and some 
serious violations of the sanctions regime that has taken place 
just in the last 2 weeks. Russia has permitted three direct 
commercial flights to Baghdad, and France has permitted one and 
is about to permit a second. Jordan is reportedly contemplating 
a sanctions-busting flight as well.
    Although the United Nations was informed of the flights, 
only one of the Russian flights had explicit permission to 
travel to Iraq. The others had none. I would like to know a 
couple of things. First, do you view these flights as sanction 
violations and then, under the terms of the Foreign Operations 
Appropriation Act 2000, no assistance can be provided to 
countries not in compliance with the U.N. sanctions on Iraq.
    Obviously, France does not receive too much foreign aid 
from the United States, but Russia and Jordan are another 
matter, and in light of this section in the Foreign Operations 
Act, section 534, does the Clinton administration intend to 
proceed, given these sanctions violations?
    Secretary Albright. First of all, I do believe that we need 
to remember that the sanctions regime has been in effect longer 
than any other. Having worked on it for a long time myself, I 
can assure you that we will remain firm. But it is complicated 
because as you have pointed out, there are a number of 
countries that disagree with us on various parts of the 
sanctions regime. But interestingly enough, all of them have 
said that they will abide by Resolution 1284, the most recent 
resolution on Iraq.
    We are concerned about these flights that have taken place. 
I did mention while I was in New York both to the French and 
the Russians that we did not think these flights should take 
place. There is a dispute about whether flights that do not 
carry cargo are sanctions-busting or not. The U.N. has not 
ruled on this. But we have made our point that these flights 
need approval, and we will continue to press the Russians and 
French on it. I think that absent any new kind of consensus, 
the Sanction Committee will continue to operate under the 
practices of the last 10 years that these flights require 
approval, not just notification.
    Now, to answer your larger question, we give assistance to 
Russia because it is in our national interest. That assistance 
is for threat reduction--the Nunn-Lugar program--and various 
local government and nongovernmental organizations because we 
want to promote democracy. So I think we always have to 
remember with our assistance programs why we are doing them. In 
suggesting that we remove assistance from x country or y 
country, we must remember why we are providing it in the first 
place and that it is in our national interest, otherwise we 
would not be doing it.
    Senator Brownback. Have you had discussions with Jordan on 
their proposed flights to Baghdad?
    Secretary Albright. We have, yes.
    Senator Brownback. And what has been the outcome of those 
discussions?
    Secretary Albright. Well, those are ongoing. We are very 
concerned about them. We are concerned about the fact that 
people cannot seem to get the facts straight on Iraq. I know 
that there is a great deal of compassion for the Iraqi people. 
The administration has compassion. Saddam Hussein does not have 
compassion for his people, and there is a way that he can get 
out from under the sanctions--by following through on what the 
U.N. requirements are.
    He is now selling more oil for food and medicine than ever 
before, and we allowed that because we wanted the Iraqi people 
to have what they needed. But I find the misrepresentation of 
facts about the sanctions regime--not by you, but generally--
misplaced in terms of saying that we are the ones keeping the 
Iraqi people from having food and medicine. There never has 
been an embargo on food and medicine. The only thing that has 
been lacking was the money for Saddam Hussein to allow that, 
and the pumping of oil has now allowed that.
    Senator Brownback. Madam Secretary, my time is almost up. I 
would note to you that we are conferencing hopefully as Members 
this afternoon on the sex trafficking bill that we have worked 
on, and I talked to Under Secretary Loy about this, and I would 
be happy to have the State Department's support.
    We really need to get at that dark side of the new 
globalization of the trafficking in human beings, and I am very 
hopeful, with strong administration support I hope we will 
have, we will be able to get this though and to the President 
shortly.
    Secretary Albright. I think it is a very important issue. I 
raise it whenever I can in bilateral meetings, and I am very 
proud of the lead that we have all taken on this. It is a 
horrible crime, and we need to deal with it.
    Senator Brownback. Thank you.
    The Chairman. I suggest that we have a quick 3-minute 
round, and then I am going to throw it open to you at the end, 
and things that you wanted to say that were not asked, I want 
you to have this wind-up time.
    I want to ask about NATO. In the couple of years, a little 
more than, we added Poland, Hungary, and the Czech Republic, we 
have not only improved the security of those countries, we have 
revitalized NATO, I think, and we worked together on that very 
well.
    Is there any reason why, in 2002, the next administration 
should not extend invitations to other Central European 
democracies if they are qualified?
    Secretary Albright. Well, first of all, as I said in my 
remarks, I think one of the best things we did together was 
NATO enlargement. I think that it revitalized the alliance, as 
you have said, and showed its relevance for the 21st century. I 
know the benefits of it already, because those countries are 
side-by-side with us in the Balkans and have contributed in a 
variety of ways and have improved their own defense 
capabilities, and understand the responsibilities that come 
with membership.
    I believe that enlargement should be an open, ongoing 
process if the countries are ready. It is not a gift. NATO 
membership is not a gift. It is a responsibility. We now have 
the membership action plan which enables countries to get 
ready.
    The Chairman. Last week, we had before this committee two 
young Cuban doctors, one of them a lady, one of them a 
gentleman, who defected in Zimbabwe back in May, and who had 
been kidnaped by Cuban officials who tried unsuccessfully to 
force them back to Havana.
    I was stunned to discover that before they were kidnaped 
they had visited the U.S. Embassy in Zimbabwe on two separate 
occasions pleading for asylum, even telling the U.S. consular 
office that they were being harassed by Cuban authorities. Both 
times, they were turned away because the embassy refused to 
help them until they were interviewed by the United Nations 
refugee office. Now, these were not just another couple of 
refugees. They were defectors from one of the world's last 
Stalinist regimes.
    Now, what I want to know, Madam Secretary, is, can the 
State Department do anything to ensure that such people get the 
urgent sanctuary they need and, when such defectors finally 
reach the United States, what can the State Department do to 
help get visas to their families so that they can join them in 
this country?
    Secretary Albright. Mr. Chairman, I think you know that my 
record on Cuba is clear, and I have utilized every option we 
have to get the Government of Cuba to reunite families and to 
allow the people to emigrate freely. The issue here, however, 
is that the Office of the United Nations High Commissioner for 
Refugees in the host country has the responsibility to protect 
the people seeking protected status around the world. We cannot 
provide protective status to anyone outside our borders.
    In the case of these Cuban doctors, after they had 
approached both the Canadian and U.S. Embassies, according to 
standard procedure, they were, as you said, referred to the 
U.N. High Commissioner. Once it was determined that they were 
in need of third country resettlement, officers of the 
Immigration and Naturalization Services traveled to Zimbabwe 
and interviewed these two people. They were, however, placed in 
detention by the Government of Zimbabwe, and we pressed the 
Government of Zimbabwe for their release, both publicly and 
privately.
    Now, the Office of the U.N. High Commissioner continued to 
work with the Government of Zimbabwe to authorize their release 
from detention and departure from Zimbabwe. The Government of 
Zimbabwe, insisted as a condition of their departure that they 
not be resettled directly in the United States. The Government 
of Sweden agreed to receive the two of them and, once in 
Sweden, the two approached the U.S. Embassy and their 
processing for resettlement in the United States was completed.
    Now, a complicating factor is that, as it turns out, 
publicity on these two cases proved to be counterproductive, 
and so we generally are declining comment in the interest of 
those who are seeking asylum. These situations end up being 
highly complicated, and I think that the problem here is that 
it ultimately got resolved. I think, nonetheless, that we need 
to be very careful in how we discuss this.
    The Chairman. Do you think the embassy personnel in 
Zimbabwe handled it right?
    Secretary Albright. Excuse me?
    The Chairman. Do you think the embassy personnel handled it 
properly?
    Secretary Albright. I do believe so, because it was their 
responsibility to turn it over to the U.N. High Commissioner.
    The Chairman. Well, fine.
    Senator.
    Senator Dodd. Thank you very much, Mr. Chairman, and 3 
minutes is not a lot of time, so I am going to run down a 
couple of quick issues, and if you do not get a chance to 
respond to them in the time left, maybe at the end of the----

    [Due to technical difficulties, a portion of the taped 
record was lost at this point. The Committee regrets the 
omission.]

    The report is a compromise report, and it is working its 
way through parliament. On this issue, obviously, we have great 
respect for our ally, Great Britain, and what they are trying 
to do here, but it is very, very important, it seems, to many 
people who are closely watching the events in Northern Ireland 
that there be full implementation if we are going to be 
successful in attracting both communities to the policing 
forces in Northern Ireland, and the present arrangement, the 
reason for the Patton report, was to try and figure out ways to 
break down those barriers, and so I would be very interested in 
whether or not there is something more the administration can 
be doing, or what it is doing with regard to that.
    On Peru, Madam Secretary, back in 1996 Senator Leahy and I 
wrote a letter to the Central Intelligence Agency about our 
concerns over Mr. Montessino, and what our relationship was 
with him 5 years ago. We obviously supported, along with the 
Organization of American States, putting some pressure on 
Panama to accept him, and I wonder if you might, if time 
permits here, to go into that a little bit, and then whether or 
not you think there is going to be successful negotiations 
between Mr. Fujimori and the opposition parties about a new 
round of elections.
    Last, with regard to Mexico, Senator Kay Bailey Hutchison 
and I have introduced legislation to postpone for 1 year the 
certification process on the drug issue to allow for President-
elect Vincente Fox and our government to try and work on a 
better relationship here in terms of dealing with the drug 
issue.
    As you know, I have for years thought we ought to come up 
with a new process here. The certification process has been 
counterproductive, in my view, on the drug issue, but I would 
be interested to know, No. 1, whether or not the administration 
would support the legislation Senator Kay Bailey Hutchison and 
I have introduced, and some broader thoughts possibly on the 
certification process for the incoming administration.
    I apologize for racing here, but we are only going to have 
a few minutes left, so it is sort of a shopping center. You 
have got a little bit of time if you want to respond to a 
couple of these, and I will wait around for your response to 
the others.
    Secretary Albright. Yes. Definitely a warning to Colombia, 
and we made that very clear.
    On the Northern Ireland issue, I think we continue to think 
that the Good Friday agreement really offers the best chance 
for some solution to this. We also believe that there are 
realistic prospects for putting all the paramilitary weapons 
beyond use within the context of that, and the Patton 
Commission offers the possibilities. We have been talking about 
this, and we urge the parties to engage with the de Chastelain 
Commission and agree with each other on a variety of these 
important goals. I can tell you that when we were in New York 
we did talk to the parties involved, and I can assure you that 
we continue to work on that.
    On Peru, I think the Montessino case is one in which it was 
very important from talking to our Latin American friends that 
he not be involved in the Peruvian situation at the moment. It 
is very fragile and there were genuine risks that greater 
instability might be created. We supported his going to Panama, 
but we are not supporting impunity, so that he is not free of 
the charges against him.
    I do believe that it is important to support the next round 
of elections. We will do everything we can through the OAS 
mechanism, which I think, in fact, had a role in moving 
Fujimori forward to take this decision. I think our best hope 
here is to work with our OAS friends--and the Canadians have 
taken a role in this. They have a representative now in Lima, 
and we should continue to work through them.
    I hope very much that we can ultimately move to some kind 
of an international mechanism on certification. I think that is 
the way to go, and I hope that this is not overreaching, but I 
think that such a mechanism should be named after Senator 
Coverdell.
    The Chairman. Thank you, ma'am.
    Senator Biden has returned. He went to express the sympathy 
of all of us to former Majority Leader Mike Mansfield, who lost 
his wife. We thank you for doing that, and we are in the midst 
of a second round, but we had one round of 5 minutes, and this 
one is----
    Senator Biden. I will not take 5 minutes, Mr. Chairman.
    The Chairman. Well, this is a second round of 3 minutes. 
You go ahead.
    Senator Biden. I will just ask one question, if I may. With 
regard to the Middle East, can you please let me know, let us 
know, Madam Secretary, the status of where we are right now, 
and the consequence, if any, of Ambassador Indyk no longer 
being a part of that process.
    Secretary Albright. First of all, let me indicate where we 
are--we are clearly in the end stretch here. I do believe, and 
this goes back to a question that Senator Grams asked, that 
President Clinton has a unique role in terms of having the 
confidence of the Israelis and the Palestinians, and the 
ability to bring the parties together as best we can through a 
variety of methods. These include getting them to understand 
where the gaps are and where and how they can come together. As 
was evident from the papers, Chairman Arafat and Prime Minister 
Barak had dinner together last night. Negotiators are coming 
here in order for us to continue our work. We are giving it the 
full court press, and I hope very much that we succeed. But as 
I said before, unless the leaders themselves make the hard 
decisions, we cannot do that for them.
    You asked previously about Ambassador Indyk, and let me say 
that I have found this a very difficult situation. The 
professionals within the Department of State made a 
recommendation that Ambassador Indyk's security clearance be 
suspended pending the outcome of an investigation of suspected 
violations of the Department of State's security procedures.
    I would just like to say for the record that there has been 
no indication that any intelligence information was compromised 
at this time. This is a question of security procedures that 
have not been followed. Ambassador Indyk is cooperating fully 
with the diplomatic security and FBI investigators, and has 
stated that he will continue to do so. I have asked the 
Diplomatic Security Bureau to conduct this investigation in an 
expedited manner.
    Now, I did have the opportunity to overturn this and it was 
very difficult. Ambassador Indyk is a good friend, and I 
respect his work very highly. I also believe, however, that it 
is essential that government-wide security procedures, which we 
are following in the State Department, need to be abided by. I 
also believe that it is important to get this investigation 
concluded quickly.
    Obviously, he will be missed within the peace process. He 
was a very important player, but there are others involved as 
well. Ambassador Ross I think is well-known to you and has 
everybody's respect, and has been the lead in this and will 
continue to be. Nonetheless, I hope very much that this is 
resolved quickly, and let me just say that, contrary to some 
newspaper headlines, the Ambassador's security clearance has 
been suspended, but his title and position have not. However, 
as this deals with the Privacy Act I think that that is as far 
as I should go.
    Senator Biden. Well, at 4:30 today, as I understand, Mr. 
Chairman, we are--if my schedule is correct. I was not sure if 
it was today or tomorrow, but 4:30 today I think we are 
receiving a briefing on this matter----
    Secretary Albright. Correct, yes.
    Senator Biden [continuing]. In a secure setting.
    Secretary Albright. Correct.
    Senator Biden. So I look forward to hearing that at the 
time. I appreciate your response, Madam Secretary, and I thank 
the chairman for his time.
    Secretary Albright. Put very simply, Senator, I think that 
you know what is already a difficult task has not been made any 
easier as a result of this.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman. Secretary Albright, 
as you touched upon this in your statement, just scarcely over 
a year ago American Armed Forces and NATO allies were involved 
in substantial military action in Yugoslavia.
    Now, just a year later, what seems to have been totally 
unexpected then has happened. Namely, an election has occurred 
in the country, although the official returns, unless something 
has occurred while we have been here, have not been made known.
    It is reported that President Milosevic's wife, his 
supporters have been in conference for a long time, that the 
count has been suspended, or at least announcements of it, and 
it has all the elements that would seem obvious of a regime 
trying to decide what to do, given an election that had an 
unexpected turnout, perhaps an unexpected result.
    Now, while they are conferring, what I would hope you might 
describe to us, if it is not confidential, is what we are doing 
in terms of conference. Are we in touch with our major NATO 
allies, and in addition, neighboring states, Hungary, for 
example, the Bulgarians, the Romanians, who will have a fall-
out from a situation that can become volatile.
    You and others have described this as a fateful moment, 
when you finally come to the end of a regime which may not want 
to go, and the violence that could occur could affect other 
states, including our Armed Forces who are in Kosovo, so I 
believe this is a very, very tense moment.
    It is on the front pages of the paper, but I do not think 
the American people have the sense of urgency about this that 
they may need to have, given steps that you may need to take. 
Can you give us any indication of what you are doing?
    Secretary Albright. Well, first of all, I do think that 
there have been a lot of nay-sayers about the importance of the 
Balkans to the United States, about what we have been doing, 
was this worth it, et cetera, et cetera.
    Now, the story is not over, as I said in my remarks, but I 
have believed that the Balkans and their integration into a 
free Europe is essential for American peace and prosperity. It 
is the missing piece of a Europe that is whole and free. 
Therefore, while it may have taken a little longer than some 
people would have liked, I think we have done the right thing. 
Of the various things I am very proud of--having taken a little 
bit of flack on this subject--I do think that our role in the 
Balkans is a very important step forward.
    Believe me, we have been in very close consultation. All 
along--and at some stage I will write about this--the 
consultations with our major allies, within the stability pact, 
and with the neighboring states on the Balkans have been the 
closest that I think have ever existed on a real-time basis.
    We have and are continuing to be concerned about Montenegro 
and have made quite clear that that is of concern to us. I 
cannot go into detail, but I can honestly tell you that we have 
looked at this very, very carefully and in very close 
consultation. We are just hoping very much that the will of the 
Serbian people, who have come out in record numbers, is 
respected by Milosevic, and that we will be in a position to 
welcome a free Serbia, Yugoslavia, into the community of 
nations, and be able to render them assistance once Milosevic 
is gone, and sanctions are lifted.
    Senator Lugar. Thank you.
    The Chairman. Amen.
    All right, Mr. Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Madam Secretary, I know national missile defense is not in 
your portfolio exactly, but I would be very interested in 
getting your perspective on national missile defense, from the 
perspective of viewing it through your lens on our geopolitical 
strategic relationships in the world. What yet needs to be done 
in order to implement a national missile defense system? What 
worked with our allies?
    Within your portfolio, your general assignment 
responsibilities, and your grasp of the world, we would be 
interested in hearing your thoughts.
    Secretary Albright. When President Clinton made his 
decision, he did say that it was a system that needed to 
continue to be looked at, and that it was something that was 
worth having for American defense but that it was not 
technically ready, and I think that is the basis.
    From the work that the State Department did, I think we 
have to look at our defense. We obviously have to do everything 
we can to protect the United States within an overall framework 
of what does not undermine what we already have. I believe that 
the ABM treaty is important, that there is a way that it can be 
adjusted that would allow for a national missile defense 
program to go forward.
    Our allies were not persuaded, and the Russians were not 
persuaded, and I think that what needs to happen is that the 
next administration should work very closely with our allies, 
based on the work that we have already done. They should 
explain our position to the Russians and the Chinese and the 
others. I think that the groundwork laid by this administration 
has been very important and very useful. I hope that the next 
administration looks into all of this in an appropriate way. We 
cannot do this completely alone.
    Senator Hagel. You mentioned you believe that the ABM 
treaty could be adjusted in order to implement a national 
missile defense treaty. Could you explain that?
    Secretary Albright. I think in the past there have been 
amendments to the ABM treaty. It can be done, so that the ABM 
treaty is vibrant and useful, and the Russians and the United 
States have to work on that.
    Senator Hagel. Any specific thought you have on that 
adjustment?
    Secretary Albright. I would prefer not to go into that.
    Senator Hagel. Thank you.
    The Chairman. Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman.
    Madam Secretary, to followup on Senator Biden's concerns 
about Ambassador Indyk, during my ongoing dialog with the State 
Department officials over the Department's security procedures 
over the last several months, the Ambassador's situation was 
never brought to the committee's attention. It required an 
anonymous caller to a committee staffer to alert us to this 
case.
    Now, understanding all the confidentiality surrounding 
this, I believe it would be better for the Department to alert 
the committee to such sensitive ongoing investigations so that 
we are not caught by surprise, as I was over the weekend, so 
should we not reach some kind of an agreement by which you 
would provide periodic updates to the committee on these types 
of sensitive but important matters?
    Secretary Albright. Well, let me first of all say that I 
believe we have been handling this in a most responsible way. 
We have obligations to the Intelligence Committee. They were 
briefed, I believe, at the appropriate time. Your staffers were 
there. I think that we also have to consider the Privacy Act 
and due process aspect of this. I feel comfortable that we 
handled this in an appropriate way that protects the security 
of the United States as well as the rights of the individual 
involved.
    Senator Grams. So your feeling is you will not share this 
information, then, in the future under certain----
    Secretary Albright. Well, I think that we have to do this 
on a case-by-case basis and understand when something is ready 
to be briefed. We have to think in this atmosphere a little bit 
about how to protect due process.
    I stand down to no one in my determination to get things 
right at the State Department on security issues, and I have 
worked very hard on this. The Department over many, many, many 
years had a different approach to this. I have zero tolerance 
for security breaches, and I have made that very clear. As I 
said, this was a very hard decision, but I think that we have 
to be careful as we look at this not to begin to impinge on 
people's privacy and rights. We will share information as 
quickly as we possibly can, and I frankly do not believe that 
it took an anonymous caller. We were making decisions to do 
this.
    Senator Grams. Well, there appears to have been a 9-day 
period between the time when the diplomatic security 
recommendation that the Ambassador's security clearance would 
be suspended, and when that suspension occurred, and the 
briefing to the Intelligence Committee and my staff did not 
occur until after the anonymous call, so would there have been 
a briefing if that call had not been made?
    Secretary Albright. There would have been a briefing when 
we believed that we had all the facts in place. I believe that 
the Secretary of State has the right to look at issues 
carefully and be able to make sure that things are done right. 
Let me just say, in terms of the way this was done, once the 
recommendation to suspend his clearance was made, it was 
expeditiously reviewed within the Department because we wanted 
to do the right thing once this was completed, we took the 
appropriate action to suspend and to brief.
    I honestly think that we have done the right thing in this, 
in terms of protecting security, recognizing the appropriate 
role that Congress needs to play in this and protecting the 
privacy and the rights of the individual involved in this.
    Senator Grams. I take you at your word, but the timing 
does--it leaves some questions. So thank you very much, Madam 
Secretary.
    The Chairman. Now then, I said before your return that I 
made a hundred speeches, good speeches, after the speech was 
delivered and I was driving home.
    Senator Biden. As a matter of fact, I have withdrawn a 
number of my comments I made on my way home.
    The Chairman. Well, I suggested to the distinguished 
Secretary of State that at the conclusion of questioning she 
must have a dozen things on her mind that maybe she would like 
to discuss, and we would be glad to hear from you.
    Secretary Albright. Well, I thank you very much, Mr. 
Chairman, and it is characteristic of your kindness that you 
would allow this.
    I believe that we have accomplished a lot in these years, 
and at a time that is so transitional and changing that it has 
given us huge opportunities and challenges. I believe that 
together we have gotten the world ready for 21st century 
foreign policy, but it is not there yet. The issues are quite 
different than they ever have been, and obviously take a much 
greater breadth of knowledge than either people on our side of 
the table or yours have had to confront previously.
    I did not ever think that I would be in a position of 
discussing genetically modified corn with the Foreign Minister 
of France or Italy, for instance, or that I would have to know 
as much as I do about the spread of HIV/AIDS and what kinds of 
medicines it takes, or about every detail of what happens in a 
country in Africa that did not exist when I graduated from 
college. So I think we need to widen our scope about what we 
know and what we care about.
    While you and I, I think, have had a remarkable 
relationship and I hope that it is noted, I honestly wish we 
had more bipartisanship, or nonpartisanship. I think that it 
would make a big difference, and I truly do believe that when 
somebody represents America, as we do, that we should try to be 
as unified as we can, and that we represent the greatest 
country in the world, so I would really like to see more 
bipartisanship.
    I agree with what Senator Lugar was saying about the 
necessity to explain our foreign policy better to the American 
public. It is a little hard to do, given the way the media 
operates these days, and how one must get complicated issues 
out very quickly. When I leave, because I am a teacher, I am 
going to try very hard to make American foreign policy even 
more understandable to the American people, because a democracy 
cannot operate without the American people understanding. I 
fully believe that the American people are the most generous 
people in the world, and they do the right thing when they 
understand it. We just dedicated our building to Harry Truman, 
and he had ultimate faith in the American people, and I know 
you do, too.
    I also have the greatest faith in the people who help us 
represent America. They are fine people who work very hard 
within a very, very difficult context. They do not have the 
money that we need to carry out our programs. Our buildings are 
not as secure as they should be. As I have said, there is a 
great deal of compassion for the American military, and I have 
it for them also. I have the highest respect for the American 
military, but I want our diplomats to be seen in the same way. 
They serve America in very dangerous places, and they sacrifice 
their lives and they are very, very good people. I need your 
help in getting our nominees out to their posts so we are 
properly represented around the world.
    And to say finally, I am very grateful to you and Senator 
Biden for all the time we have spent on the phone and here in 
various meetings. You have been great partners, and I hope it 
is not all over yet. We have a lot more to do, and I am not 
going too far away. I will be always very pleased to appear 
before this committee in whatever role I am in.
    Thank you.
    The Chairman. May I ask Senator Biden, is it in order if 
all of us give her a hand?
    [Applause.]
    Secretary Albright. Thanks a lot. Thank you.
    The Chairman. I do not believe that has ever been done 
before.
    Secretary Albright. I believe not.
    Senator Biden. Surely no Secretary of State has ever 
curtsied before.
    The Chairman. Well, it has been our pleasure, and we have 
got some weeks ahead, and we will be on the telephone and so 
forth. But thank you for being a great friend, and a great 
servant of the American people.
    If there be no further business to come before the 
committee, we stand in recess.
    [Whereupon, the committee recessed.]
                              ----------                              


                   Statement Submitted for the Record


           Prepared Statement of Senator Russell D. Feingold

    I want to thank the Chairman for holding this hearing, and to thank 
Secretary Albright for being here today.
    I regret that I am unable to stay at the hearing in order to ask 
questions today. An objection has been made to committee meetings past 
11:30 a.m., and I respect the right of my colleagues to use all 
procedural tools at their disposal. I respect the rules of the Senate, 
but I also respect the motive for this particular objection--the need 
to respond to the refusal of the majority to allow action on the 
nominations of several excellent judicial nominees who have been denied 
a vote and an opportunity to be confirmed.
    Secretary Albright, your tenure as Ambassador to the United 
Nations, and then as Secretary of State, has coincided exactly with my 
tenure as a member of the Foreign Relations Committee. Both of your 
confirmation hearings, your subsequent excellent performance, and the 
strong relationship that you have forged with the committee are among 
my fondest and most satisfying memories of this committee's work.
    This hearing is an ambitious one. The committee intends to examine 
an eight-year record of policy toward the entire world. No doubt 
members' questions will take us into the weeds of specific decisions 
relating to individual countries. But I would like to take this 
opportunity to make a few general remarks about the big picture--the 
course of American foreign policy since I joined the Senate in 1993.
    America has borne, and will continue to bear, great responsibility 
as the world's sole superpower. This country, more than any other, can 
affect the course of this new century, and already has affected the 
shape the ``post-Cold War era'' that we examine today.
    History teaches us that great powers often become the enemies of 
progress, because they perceive their interests to lie in maintaining 
the status quo. Great powers tend to enforce and maintain the 
international order from which they profit and draw strength. I believe 
that the challenge before this Administration, and before American 
foreign policy in general, is one of balancing this imperative for 
order and stability with another imperative, drawn from our national 
character and national values, to seek justice and respect for the 
basic rights of men and women around the world. History has also taught 
us that order without justice will eventually rot from within. In our 
own lifetimes, we have seen empires and orders crumble--from the 
independence movements of the 1960s to the collapse of the Soviet 
Union--because they could not contain the pressure within for greater 
justice, for human rights, and for liberty. When this country has 
supported corrupt orders and turned a blind eye to injustice, we have 
only undermined our own interests, and betrayed our own values, in the 
end.
    The pursuit of a balance between justice and order, then, has been 
the fundamental task before this Administration. I fear that the 
Administration has sometimes been distracted from this pursuit. For 
example, I have been distressed by a tendency to segregate human rights 
issues from other items on the foreign policy agenda. I believe that we 
must not ``de-link'' human rights from trade or security issues. We 
must raise human rights consistently at the highest levels, in 
bilateral talks and in multilateral fora. I believe that that the 
Administration's critics are right when they insist that labor rights 
should be raised in the context of global trade negotiations. I fear 
that our China policy will suffer from the recent push to end the 
annual Congressional review of China's human rights record. And I 
believe that the influence of money in politics goes a long way toward 
explaining some of this deviation from our core foreign policy goal.
    That said, this Administration has shown remarkable vigor in 
embracing new democracies around the globe. State accountability to 
citizens and the rule of law are two of the strongest bulwarks against 
oppression, and this Administration has admirably worked to increase 
the number of genuine democracies in the international community. The 
Administration has made progress in the Middle East, forged important 
new relationships in Europe, and has engaged the countries of Africa at 
higher levels than ever before. Most recently, the Administration has 
devoted significant resources and high-level attention to the terrible 
the HIV/AIDS epidemic and the crippling debt crisis, recognizing the 
impossibility of maintaining order or justice in a world in which 
poverty is a death sentence.
    There is much to applaud, and much more to be done. If I had been 
able to stay and ask questions, I would have touched on a number of 
these unresolved and critically important issues. For example, this 
past weekend, the Indonesian army has begun to confiscate weapons from 
militia groups in West Timor. How credible that effort is remains to be 
seen. I would have liked an opportunity to explore what the 
Administration plans to do if the latest Indonesian effort does not 
prove to be significant, and particularly to learn whether the 
Administration willing to delay the October's international donors' 
meeting for Indonesia if there is no progress on this issue.
    Turning to Africa, where so many urgent needs go unmet and so many 
critically important issues remain unresolved, I would have explored 
the Administration's plans for monitoring the West African troops that 
the U.S. is currently training for participation in UNAMSIL. Certainly 
some these troops are likely to see very ugly combat; the RUF has 
proven its willingness to test international forces time and again. 
However, there are lines that should not be crossed, even in serious 
combat situations. I hope that the Administration plans to monitor the 
human rights performance of the troops we train, and to monitor the 
involvement of U.S.-trained troops in illicit diamond smuggling, an 
accusation recently leveled at Nigerian troops in Sierra Leone.
    In addition, the war in DRC continues to exact a terrible human 
cost, and the status of the Lusaka agreement remains uncertain. The DRC 
conflict is very much the outcome of central Africa's recent history, 
and is inextricably linked to the crises in Rwanda and Burundi, crises 
which this Administration has seen unfold over its tenure. Many 
observers believe that the conflict cannot be resolved as long as there 
is no accountability for crimes against humanity in the region--and 
therefore no imperative to distinguish between legitimate and 
illegitimate activities. I hope that the Administration is working to 
address the need for accountability in Congo and Burundi.
    Finally, turning to a major, unresolved issue to which this 
Administration admirably devoted a great deal of time and energy, I am 
interested in the status of the Middle East peace process, and in the 
status of Syria's position towards Israel.
    My own questions and interests bear out the Secretary's opening 
remarks. There is much yet to be done, and the world does not stand 
still for American elections. I hope that the Administration will 
continue to work toward peace and justice in the months ahead, and I 
trust that Secretary Albright will continue to insist that U.S. foreign 
policy reflects U.S. values throughout the remaining days of the 
Administration.
                              ----------                              


  Additional Questions to Secretary Albright Submitted for the Record


Responses of Hon. Madeleine K. Albright to Additional Questions for the 
                Record Submitted by Senator Jesse Helms

                      EMBASSY TEMPORARY SANCTUARY
    Question. In your remarks before the Senate Foreign Relations 
Committee concerning the two Cuban defectors in Zimbabwe, you indicated 
that American Embassies cannot provide emergency protection for 
citizens of allied or enslaved states who, like the two Cuban doctors, 
come to our embassies in hostile third states to seek temporary 
sanctuary owing to an imminent danger of some kind.
    There are well known instances in the recent past of Western 
embassies providing sanctuary or other assistance to American officials 
or travelers during emergencies in third countries. One such instance 
reportedly occurred in 1978 when Iranian revolutionaries attacked and 
seized the American Embassy in Tehran, and the Canadian Embassy 
assisted a number of our citizens in their efforts to escape from Iran.
    Your answer to the Committee sent a clear message to friendly 
nations and peoples around the world, namely, that they may no longer 
count on the American embassy for such extraordinary temporary 
assistance when their officials or citizens are in distress. Logically, 
American officials and travelers could pay a corresponding price.
    Is this the message which you intended to convey?

    Answer. That is not the message I intended to convey. Our 
diplomatic and consular posts throughout the world have been instructed 
that, subject to the paramount importance of the safety and security of 
the mission and its personnel, temporary refuge may be provided to 
individuals of any nationality in extraordinary circumstances of 
imminent physical danger or imminent danger of involuntary repatriation 
to a country where they have a well-founded fear of persecution. As 
discussed in response to the second part of your question, it was the 
correct judgment of our embassy in Zimbabwe (as well as the Canadian 
Embassy), based on the evidence and information available at the time, 
that such extraordinary circumstances were not present when the two 
Cuban doctors initially approached the embassy and were properly 
referred to the local Office of the United Nations High Commissioner 
for Refugees (UNHCR). In any case where asylum seekers or those 
claiming refugee status walk into a U.S. diplomatic or consular post, 
the assistance that can be provided is constrained by many practical 
realities, including the general need to respect host country law and 
the ultimate dependence of the mission and its personnel on host 
government authorities for safety and security. In the Department's 
experience, such cases are normally best handled by local authorities 
and/or UNHCR. Moreover, publicity can be counterproductive, as was the 
case in Zimbabwe. With regard to the assertion that friendly nations 
and Peoples around the world might no longer be able to ``count on'' 
the local American embassy, I would note that the record shows just the 
opposite has been true for many years. In case after case where 
noncombatant evacuations have been necessary, it has been the American 
embassy that has organized the friendly diplomatic and civilian 
communities so that the evacuation can be carried out (normally by the 
U.S. military).

    Question. It is our understanding that two Cuban doctors were 
turned away from our embassy in Harare recently because the State 
Department did not consider them to be in imminent danger which turned 
out to be a gravely mistaken judgement. In light of the extraordinary 
efforts of the Castro regime to recapture these doctors, as well as 
Castro's predictable response to the spate of defections by Cubans on 
other humanitarian missions, what steps will you take to alert American 
embassies to take special care in ensuring the security of Cubans 
seeking asylum?
    Finally, please provide the Legal Adviser's explanation of the 
premise that the United States embassy in Harare was completely 
powerless to provide any assistance whatsoever to these defectors, and 
had no alternative to approaching the UNHCR.

    Answer. As indicated in response to the first question, the 
guidance received by our diplomatic and consular posts concerning the 
handling of such cases is not based on nationality but is the same for 
all individuals without regard to nationality. And the test for 
temporary refuge is the same for all: are they in imminent physical 
danger or in imminent danger of involuntary repatriation to a country 
where they have a well-founded fear of persecution? Whether or not 
temporary refuge is given, an eventual status determination by the host 
government (if appropriate or in imminent danger of involuntary 
repatriation to a country where they have a well-founded fear of 
persecution? Whether or not temporary refuge is given, an eventual 
status determination by the host government (if appropriate refugee 
screening procedures are in place), or otherwise by UNHCR, is the way 
to determine if the individuals concerned are in fact refugees.
    My statement was not intended to leave the impression that our 
embassy in Harare was ``completely powerless'' to provide assistance to 
the two Cubans or that there was ``no alternative'' to approaching 
UNHCR. There are substantial practical limitations on the nature and 
extent of the assistance we can give, particularly in a difficult 
environment such as Zimbabwe in this case. Moreover, in the absence of 
imminent danger to the two Cubans, there was no good alternative to 
approaching UNHCR (or referring the Cubans to UNHCR) and that doing so 
was fully consistent with the standing instructions given Embassy 
Harare and all other U.S. diplomatic and consular Posts. We are pleased 
that UNHCR's intervention with the Government of Zimbabwe was 
ultimately successful and that the two Cuban doctors were allowed to 
depart safely for Sweden. As you know, they were subsequently approved 
by INS for admission to the United States.

                       STATE DEPARTMENT RETIREES
    Question. Why has the State Department decided to bar Foreign 
Service and Civil Service retirees from Main State and the Annexes 
unless they obtain escorts? Please list all security incidents 
involving retirees. Does the State Department issue renewable 
identification cards to its Foreign Service and Civil Service retirees? 
How does the State Department's new policy on escorts for retirees 
compare with Department of Defense and Central Intelligence Agency 
policies for their retirees? May former Presidents or Secretaries of 
State enter Main State or the Annexes at will, and without an escort?

    Answer. In response to several well-publicized and unacceptable 
security incidents at the Department including the bugging of a seventh 
floor conference room and a missing lap-top possessing highly 
classified material, a top down review of security procedures in place 
at the Main State Department building was conducted. Following this 
review, a stricter visitor policy to the building was put in place 
wherein all visitors must be escorted while in the building. On 
September 1, 2000, this policy was extended to include State Department 
retirees.
    The purpose of this policy was never to prohibit retirees from 
entering the building but was instituted in an effort to only allow 
unescorted access inside the building to individuals who have active 
employment status or activities within the Department. Retirees are 
welcome to visit the State Department albeit with an escort from the 
office they are visiting.
    The Department's records of security incidents involving the 
possible compromise of classified information do not reflect the 
employment status of the violator. Therefore we cannot conduct such a 
search of our records. However, by definition retirees are no longer 
employees of the U.S. Government and the Department would not issue a 
security incident to retirees as it would to active employees. Retirees 
fall into the same category as uncleared Americans visiting our 
facilities. Although retirees may have held security clearances in the 
past upon separation with the U.S. Government any security clearances 
they may have once held are withdrawn. Allow me to reiterate that the 
recent tightening of our visitor policy was not focused on any 
incidents involving retirees but rather it was an attempt to adopt a 
stricter, more uniform access control policy.
    The Department continues to issue renewable photo retirement cards, 
which identify the holder as a former Foreign Service Officer or Civil 
Service employee. Before September 1, 2000, this card allowed the 
bearer unescorted access inside the building. Although this 
identification card continues to be issued by the Bureau of Human 
Resources Office of Retirement, the card may no longer be utilized for 
unescorted access within the Department's facilities.
    All intelligence community agencies have retiree escort 
requirements. The Department of Defense's policy for the Pentagon is 
similar to the Department's policy as it requires retirees to be 
escorted. Limiting unescorted access to individuals who have an active 
employment status or activities with the Department is a reasonable 
measure in line with access control policies in most similar 
institutions.
    Former Presidents or Secretaries of State would not be allowed 
access to Department facilities without an escort, but the issue is a 
moot one as these individuals would receive an escort as a matter of 
protocol.
                           CHINA HUMAN RIGHTS
    Question. Now that both houses of Congress have voted for PNTR for 
China, how will the Administration exert effective pressure for human 
rights improvements?

    Answer. We believe principled, purposeful engagement with China on 
human rights is the most effective way to influence China's human 
rights practices over the long term.
    Our long-standing policy combines vigorous external focus on the 
human rights situation in China with support for internal reform trends 
and continued economic development. Our strategy will not change post-
PNTR. We will continue to tell it as it is.
    Our annual Human Rights Report in February documented the marked 
deterioration of the human rights situation in China throughout 1999, 
highlighting the sharp limits the government sets on how much freedom 
it will tolerate and its failure to protect freedom of association, 
assembly, expression, religion and conscience.
    Our second annual Report on International Religious Freedom this 
September spotlighted persecution of persons in China for peacefully 
practicing religious or spiritual beliefs. The report was the basis for 
the decision to continue the designation of China as a country of 
particular concern for violations of religious freedom.
    We also press this issue multilaterally. Last spring, we sponsored 
a UN Commission on Human Rights resolution on human rights abuses in 
China. Although China's ``no-action'' motion blocked passage of our 
resolution, we focused international attention on this important issue.
    In our bilateral contacts with Chinese leaders, we have urged 
repeatedly, led by the President's personal initiatives, that China 
live up to its international commitments to respect fundamental 
freedoms.
    We are committed to continuing to press the Chinese government to 
meet its international obligations to respect fundamental human rights.
                CHINA EXECUTIVE-CONGRESSIONAL COMMISSION
    Question. Would you favor beefing up the role of the new Executive-
Congressional Commission on China by posting staff for commission in 
Beijing and Lhasa, and seeing a debate each year in Congress on the 
commission's report and recommendations?

    Answer. The Executive-Congressional Commission on China provides a 
valuable forum for research, discussion, and analysis of the human 
rights situation in China. We look forward to cooperating with the 
Commission.
    We do not believe it is appropriate for the Commission to post its 
personnel in China.
    As the Commission conducts its review function, it will have access 
to the reporting from our Embassy and Consulates in China. We look 
forward to working with the Commission to ensure we provide the 
information the Commission needs.
    Of course, we always welcome a constructive debate in Congress, but 
believe that pursuing such a debate is a question for the Congress to 
decide.
                    CHINA: U.S.-CHINA LABOR DIALOGUE
    Question. Will Secretary of Labor Alexis Herman go to China this 
fall to press for respect for workers' rights? She was invited by the 
Chinese to visit last year, and though USTR and Commerce have sent high 
level delegations on trade issues, Labor has yet to engage Beijing on 
serious violations of worker rights.

    Answer. The Administration remains deeply concerned about 
violations of worker rights in China. Pursuant to a 1998 agreement that 
established a bilateral labor dialogue with China, Secretary Herman 
hosted Zhang Zuoji, China's Minister of Labor and Social Security, for 
meetings in Washington in March 1999. As part of those meetings, the 
issues of worker rights and compliance with fundamental principles of 
the International Labor Organization were discussed at length. 
Secretary Herman asked that Minister Zhang take steps to comply with 
findings of the ILO's Committee on Freedom of Association, including 
the release of prisoners that the ILO has determined appear to be 
incarcerated in China for legitimate trade union activities.
    In addition, the Deputy Under Secretary of Labor, the head of the 
U.S. delegation to the ILO Governing Body meetings, has repeatedly 
spoken in support of the adoption of the findings and recommendations 
in ILO cases that relate to incarcerations of labor leaders and the 
inconsistency in the law and practice in China with regard to ILO norms 
on basic labor rights. The Deputy Under Secretary also visited China 
last year to continue discussions on the labor dialogue on issues 
related to core labor standards.
    The originally scheduled dates for Secretary Herman's visit to 
China were postponed by the Chinese. Secretary Herman continues to have 
under consideration the current invitation from the Chinese for such a 
visit, and she continues to give high priority to such a visit, 
particularly in light of the new labor elements contained in the PNTR 
legislation approved by the Congress.
                                 BURMA
    Question. On July 19 the U.S. Senate passed a resolution, which 
calls for sustaining current economic and political sanctions against 
Burma. It also calls for the U.S. to seek multilateral support of the 
U.S. sanctions policy. Please inform the committee of efforts made by 
the State Department to garner concrete measures from our allies in 
Asia and Europe to help the Burmese people.

    Answer. We have worked hard to garner strong multilateral support 
for our sanctions policy. The European Union has joined us in 
implementing a variety of sanctions on the Burmese military government 
including suspending the Generalized System of Preferences (GSP), 
instituting an arms embargo, limiting official government-to-government 
assistance to humanitarian aid only, and banning the issuance of visas 
to high-level military officers and government officials. Switzerland 
recently moved to freeze the assets of Burmese military officers. Japan 
has suspended the bulk of its Official Development Assistance (ODA) 
program. We are also working with key allies and like-minded countries 
in the ILO to secure the unprecedented application of Article 33 
sanctions against the Burmese regime in response to its forced labor 
practices. Application of Article 33 entails an ILO recommendation that 
all ILO members review their political and economic relationship with 
Burma and pursue relevant sanctions as appropriate.
                        WEST TIMOR AND INDONESIA
    Question 1. This past weekend, the Indonesian army has begun to 
confiscate weapons from militia groups on the West Timor/East Timor 
border, but has the effort been significant or mainly for public 
relations effect?

    Answer. We have made clear to the Indonesian government that 
failure to take decisive action to disarm the militias could harm 
Jakarta's relations with the U.S. and the rest of the International 
Community. The militias remain a threat to peace and security in the 
East Timor/West Timor border region and they must be disarmed to 
eliminate the threat to public order and safety.
    Indonesia has invited the UN Security Council to send a delegation 
to Indonesia to review progress in the implementation of UNSCR 1272 
(1999) and 1319 (2000).
    Indonesia's plan for dealing with the militias called for a period 
of voluntary arms surrender to be followed by weapons seizures. We note 
that after the short period of voluntary surrender of arms, the 
government has moved to an interim phase it calls ``persuasion,'' and 
it is conducting sweeps to look for weapons. The Indonesian government 
has indicated that 81 standard automatic weapons, 1,140 homemade 
weapons, 69 grenades and 8,111 rounds of ammunition have been 
surrendered. Estimates of the number of weapons still in militia 
possession vary, but it is clear the process of confiscating weapons is 
far from complete. We have repeatedly urged the government to continue 
and intensify their activity until the militias are effectively 
disarmed and arrest militia leaders suspected of crimes and human 
rights abuses. We also expect the government will take steps to disband 
the militias, as called for by the Security Council. To date, the 
government has taken few steps to meet this requirement.

    Question 2. Has there been any serious effort made by the 
Indonesian authorities to arrest Eurico Guterres and other militia 
leaders, either for their role in East Timor last year or on illegal 
weapons charges?

    Answer. The Indonesian police arrested Eurico Guterres on October 4 
on charges of illegal weapons possession and for inciting his followers 
to reclaim weapons handed over to the Indonesian authorities in West 
Timor on September 24. We welcome his arrest as a first step in ending 
militia violence in East and West Timor and hope the Indonesian 
authorities will conduct a thorough investigation into his activities. 
This investigation must include his possible involvement in the Atambua 
attack on September 6 in which three UNHCR workers--including a U.S. 
citizen--were brutally murdered. This investigation must also include 
his alleged involvement in atrocities committed in East Timor following 
the independence referendum in August 1999, for which the Indonesian 
Attorney General's office has named him as a suspect. We will closely 
follow the Indonesian investigation of Eurico Guterres, and we look for 
additional investigations of militia leaders.

    Question 3. What arrangement, if any, has been made for the 
repatriation of refugees wishing to return to East Timor? What needs to 
be done to create the necessary safe conditions for the return of UNHCR 
and other relief workers?

    Answer. Spontaneous, small-scale repatriation to East Timor of 
refugees continues despite the evacuation of almost all expatriate 
relief workers. Returnees make their own way to the border where they 
are received and assisted by the UN. More organized, larger-scale 
repatriation will require security in West Timor so that refugees are 
free to choose to go to East Timor and so that relief agencies can be 
present to assist with the movements.
    The Government of Indonesia has initiated an effort to confiscate 
weapons belonging to militias operating in West Timor but to date the 
effort has been insufficient to ensure security and the GOI has not 
established a deadline for this task to be completed. It is crucial 
that disarmament and disbanding of militia succeed in order to allow 
refugees in West Timor the opportunity to decide in peace where they 
wish to settle, and to bring peace to the citizens of West Timor. In 
addition, UNHCR workers will not be able to return to assist until 
their security is assured.
    The United States government has contributed over $75 million in 
humanitarian assistance for victims of the conflict, including refugees 
in West Timor, since the crisis in the territory began in September 
1999. An additional $25 million has been provided by the United States 
government for employment generation and economic support efforts in 
East Timor over the last fiscal year.

    Question 4. Does the U.S. support the formation of an independent 
fact finding team to investigate who was responsible for the murder of 
UN workers, local villagers and a militia leader on September 5th and 
6th as the Indonesian Human Rights Commission has recommended?

    Answer. We place great importance on a thorough investigation of 
the circumstances surrounding the terrible murders of UNHCR workers and 
Timorese residents in Atambua on September 5th and 6th. We strongly 
support UN Security Council Resolution 1319, which calls for the 
Indonesian government to bring the perpetrators of these crimes to 
justice. The Indonesian government has pledged to comply with the terms 
of Resolution 1319. We have repeatedly urged Indonesia's leaders to 
fulfill this commitment and pursue their investigation in a vigorous, 
expeditious, and credible fashion--emphasizing the need for concrete 
results rather than rhetoric. We welcome the planned Security Council 
mission to Indonesian--including West Timor--scheduled for November, 
which will review Indonesian progress in complying with Resolution 
1319. We will continue to follow closely the progress of the Indonesian 
investigation, which has led to the arrest of seven suspects to date. 
While we support a credible Indonesian investigation as the best way of 
proceeding, we will have to consider an international mechanism if the 
Indonesian-led process does not prove to be credible.

    Question 5. Is the Administration engaged in discussions with other 
donors and the World Bank on how best to use the international donor 
meeting for Indonesia in Tokyo, Oct. 18-19, to press for concrete 
progress to end human rights abuses in West Timor, Aceh, the Moluccas, 
and elsewhere? Will the U.S., along with the EU. and others, try to 
delay the meeting if the crisis on the West Timor border is not 
satisfactorily resolved?

    Answer. The USG has led efforts among major donors to discuss ways 
in which the Consultative Group for Indonesia (CGI) can be used as a 
forum to express the grave concerns of the international community 
regarding the need for Indonesia to make real progress in implementing 
USCR 1319 and resolving the problems in West Timor. We have been 
successful in coordinating our CGI statements with those of most other 
major donors to emphasize that continued economic support for Indonesia 
will depend in part on progress in resolving the country's problems in 
its provinces. The USG determined that this coordinated action at the 
CGI was more practicable and acceptable to other donors than attempting 
to delay the CGI.
                     CAMBODIA: KHMER ROUGE TRIBUNAL
    Question. The negotiations between the UN and Cambodia over 
creating a tribunal to bring Khmer Rouge leaders to justice appear to 
be at a standstill. What can the U.S. do to help jumpstart the process, 
while not compromising on the highest possible international standards 
for conducting such trials? Do you expect the UN and the Cambodian 
government to sign an MOU this year?

    Answer. In April of this year, the UN and the Royal Government of 
Cambodia (RGC) agreed in principle on the conditions necessary to 
create Extraordinary Chambers of the Cambodian Court to try former 
senior Khmer Rouge leaders for crimes committed during their regime 
(1975-1979). In July, both sides reaffirmed their intention to create 
and conduct such Extraordinary Chambers.
    The next step will be for the Cambodian National Assembly to debate 
and pass a law implementing the Extraordinary Chambers and permitting 
international participation in the Cambodian Court for the purpose of 
bringing former senior Khmer Rouge leaders to justice. We understand 
that the legislative committee of the National Assembly has begun the 
necessary first step of reviewing the articles of the draft law with 
representatives of the Royal Government of Cambodia. The committee must 
finish reviewing the legislation, then present it to the National 
Assembly at large. Once the legislation has been passed, the UN and the 
RGC will be able to sign a formal MOU.
    Our Ambassador in Phnom Penh has been discussing the timetable for 
possible presentation of the legislation to the National Assembly with 
the highest levels of the Cambodian government. The RGC has assured us 
that consideration of the draft legislation will resume as soon as 
possible, given delays caused by recent massive flooding in Cambodia. 
We have consistently urged the RGC to move forward as quickly as 
possible on this matter, and will continue to do so at every 
opportunity.
                  CAMBODIA: DEMOBILIZATION OF MILITARY
    Question. Reintegration of factional armies into the Royal 
Cambodian Armed forces, and demobilization of Cambodia's bloated 
military, is now a priority. The U.S. is one of the funders of 
Cambodia's demobilization program. What steps can be taken to insure 
that military enrollment does not increase with either real or phantom 
troops as the demobilization program is implemented, that weapons are 
actually confiscated, and that elite forces in Phnom Penh--as well as 
provincial forces and commune-level militia--are included in the 
demobilization program?

    Answer. The U.S. provides no assistance to Cambodia for the 
demobilization effort, although the World Bank, to which the U.S. 
contributes, will provide funding. The demobilization process for the 
Royal Cambodian Armed Forces (RCAF) serves a twofold purpose: 
demilitarization of armed forces which have swelled from thirty years 
of war and civil strife, and reshaping the national budget to allocate 
more resources to social needs. Demobilization remains a crucial 
condition for broader and continued international financial aid and 
loans.
    A pilot program conducted earlier this year by the RGC demobilized 
1,500 soldiers, and was undertaken to help assess the costs of 
conducting larger-scale demobilization and to determine an equitable 
level of compensation to be allotted to each demobilized soldier. The 
pilot program has two components, (1) immediate demobilization of 
soldiers with one year's compensation, and confiscation of arms, and 
(2) provision of training and development of infrastructure to provide 
sustainable income to the demobilized. The crucial second phase has not 
yet occurred due to delayed funding from donors. The RGC has said it 
will not proceed with the full demobilization until the pilot program 
is complete.
    The RCAF has completed a computerized registration of all soldiers 
and has produced numerical targets for demobilization based on this 
accounting. Currently there is no recruitment into the RCAF and donors 
will closely monitor the demobilization effort and military budget. 
Elite forces (e.g., body guard and special forces units) are not 
targeted for demobilization under the demobilization program, nor are 
provincial militias, which fall under the authority of the Ministry of 
Interior, rather than the RCAF. We will continue to press the RGC to 
proceed with a separate demobilization of militia and police.
                       VIETNAM--RELIGIOUS FREEDOM
    Question. The Communist Government in Vietnam continues to ban 
independent religious activities and repress religious practitioners 
who want to exercise their freedom of religion. Mr. Truong Van Thuc, a 
Hoa Hao Buddhist, will be tried today along with: Nguyen Chau Lang, 
Tran Van Be Cao, and Tran Nguyen Huon for crimes described as defaming 
the government and abusing democracy.
    Madam Secretary, how will you and others in the Administration 
initiate strong and immediate intervention with the Government of 
Vietnam on behalf of the above Hoa Hao Buddhists and urge their early 
release from prison?

    Answer. The State Department deplores all restrictions on religious 
freedom. Department officials, along with our Embassy in Hanoi and our 
Consulate in Ho Chi Minh City, frankly and frequently express to the 
Vietnamese Government our concerns about religious freedom. During my 
September 21 meeting with Vietnamese Foreign Minister Nien, I pressed 
the issue of Vietnamese Government harassment of religious adherents 
who do not belong to officially-recognized religious organizations. 
Former Ambassador for International Religious Freedom Seiple discussed 
this issue at length with the Vietnamese during the last meeting of our 
Human Rights Dialogue. Ambassador Peterson regularly raises these 
issues at the highest levels of the government in Hanoi. While 
immediate results may not be apparent, our engagement with the 
Vietnamese Government on this issue has contributed to the release of 
some persons who have been detained for religious practices. We will 
continue to monitor religious freedom in Vietnam, and to urge that the 
Vietnamese Government respect the basic right to freedom of religion.
             VIETNAM--HUMAN RIGHTS AND THE PRESIDENT'S TRIP
    Question. How will President Clinton's upcoming visit to Vietnam be 
used to promote significant improvements in human rights and ensure 
that Vietnam's progress in political reform keeps pace with economic 
change?

    Answer. President Clinton's upcoming visit to Vietnam will promote 
U.S. policy goals as part of a strategy of engagement with Vietnam. The 
President will use his meetings with Vietnam's leaders to press for the 
fullest possible accounting for American POW/MIAs, freedom of 
emigration, and respect for human rights and religious freedom. He will 
also encourage them to continue with economic reform, to provide 
increased opportunities to U.S. business, and to contribute 
constructively to Asian regional stability.
             VIETNAM--PRESIDENTIAL ACTIONS ON HUMAN RIGHTS
    Question. What will President Clinton do both prior to and during 
his visit to press for significant, realistic and tangible progress in 
human rights, specifically in tenns of addressing the harassment and 
silencing of government critics and restrictions on basic rights of 
free expression, freedom of association, freedom of religion, and 
freedom of the press?

    Answer. As the State Department's annual human rights reports make 
clear, this Administration is well aware that Vietnam has a long way to 
go to meet international standards of respect for human rights. While 
the White House is the most appropriate source for information about 
the President's specific actions and activities, I fully expect that 
the President will use his meetings with Vietnam's leaders to 
underscore our concerns about Vietnam's performance in the realm of 
human rights.
                   U.S.-VIETNAM HUMAN RIGHTS DIALOGUE
    Question. How can the U.S. beef up its bilateral human rights 
``dialogue'' meetings with Vietnam, which since 1994 have led to little 
or no substantial progress beyond providing a forum for exchange and 
discussion?

    Answer. The annual Human Rights Dialogue with Vietnam, which began 
in 1992, has become increasingly frank and substantive. These exchanges 
have served as a vehicle for demonstrating to Vietnam that the 
recognition of international human rights principles is a cornerstone 
of U.S. foreign policy. While progress may be slow in coming, we are 
convinced that, over time, Vietnam will see that its interests will be 
best served by adhering to international standards of respect for human 
rights.
                   VIETNAM--PRESIDENTIAL TRIP THEMES
    Question. Does the President intend to apologize to Vietnam for our 
involvement in the Vietnam War?

    Answer. While the White House is the most appropriate source for 
information about the President's specific actions and activities, we 
do not expect the President to apologize to Vietnam for the United 
States role in Vietnam.
                MALAYSIA: IMPRISONMENT OF ANWAR IBRAHIM
    Question. Does the State Department still oppose the imprisonment 
of Dato Seri Anwar? Are efforts being made to bring up the treatment of 
Dato Seri Anwar and other Malaysian political prisoners in bilateral 
discussion? Will you instruct our Ambassador to Malaysia to do 
everything possible to pressure the Malaysian government to release 
Dato Seri Anwar?

    Answer. We have repeatedly stated our concerns about Anwar 
Ibrahim's situation, and have joined others in openly questioning, on 
many occasions, the fairness of his treatment. We have made our 
concerns about Anwar and other Malaysian human rights issues known to 
the government of Malaysia, and will continue to do so. The strong 
views we conveyed to the Malaysian government have been reflected as 
well in many public statements about this matter.
    Our statements have cited concerns about his detention under 
Malaysia's Internal Security Act and his treatment in prison. We have 
publicly criticized questionable aspects of his initial trial. On the 
conclusion of his most recent trial in early August on a second set of 
charges, our spokesman issued statement expressing our further outrage 
over this new conviction and the heavy sentences meted out to Anwar and 
his adopted brother Sukma. The statement also highlighted our concerns 
over the many questionable legal procedures that arose during Anwar's 
trial.
    The U.S. Government considers Anwar to be a political prisoner and 
has identified him as such in the Department's Human Rights Report.
                  MALAYSIA: DOING BUSINESS IN MALAYSIA
    Question. What is the State Department doing to ensure the safety 
of U.S. citizens doing business in Malaysia; and is the State 
Department currently warning Americans who wish to do business in 
Malaysia about the arbitrary nature of that country's judicial system?

    Answer. The Department of State's annual human rights report notes 
that ``Since 1988, Government action, constitutional amendments, 
legislation restricting judicial review, and other factors have eroded 
judtcial independence and have strengthened executive influence over 
the judiciary.'' The American business community in Malaysia, of 
course, is well aware of the situation with regard to the Malaysian 
judiciary.
    However, we have had no report of improper judicial actions against 
American investors. The American Embassy works closely with the 
American Chamber of Commerce in Malaysia and its members and regularly 
briefs visiting American business executives. In discussions with 
American firms and individuals considering investments in Malaysia and 
other foreign countries, as a matter of course we urge them to review 
carefully all available and pertinent information on their possible 
investment destinations. We will continue to do so.
         CHINA PROLIFERATION SANCTIONS, JAPAN WHALING SANCTIONS
    Question. On September 13, the Clinton-Gore Administration helped 
defeat a Senate amendment that would have provided for sanctions 
against China for its proliferation activities around the world. On 
that very day, the Administration announced that it was initiating 
sanctions against Japan because Japan had resumed whaling.
    So here we have the Clinton-Gore Administration refusing to 
sanction an adversarial nation, China, over a critical national 
security threat--nuclear proliferation, while simultaneously 
sanctioning a treaty ally, Japan, over a manifestly trivial issue--
whaling.
    Why should this not be viewed as an example of misplaced foreign 
policy priorities?

    Answer. Nonproliferation is one of the most important issues for 
this Administration and is a key component in our relationship with 
China. As has been pointed out many times, we have serious concerns 
about the missile- and weapons of mass destruction-related export 
activities of Chinese entities. We have sanctioned Chinese entities 
before (1991, 1993, and 1997) for proliferation-related activities, and 
we will do so again if warranted.
    The question is not one of commitment, therefore, but of results. 
We continue to believe that our current approach is the most effective 
way to make progress with China in the nonproliferation area. Our 1997 
agreement on Peaceful Uses of Nuclear Energy and the accompanying 
strengthening of China's nuclear related export control regime is a 
case in point. We will not relent in our efforts to bring China's 
policies and practices in line with international norms.
    As for the response to the expanded Japanese whaling program, the 
Administration does not consider this a trivial matter. Despite 
international protection, Japan expanded its North Pacific lethal 
``scientific'' whaling program to include two endangered or threatened 
species, the sperm and Brydes whales. Commerce Secretary Mineta 
certified Japan under the Pelly Amendment to the Fisherman's Protective 
Act of 1967, a law that requires the Secretary to notify the President 
whenever the Secretary determines that a country is taking actions that 
undermine the effectiveness of an international fishery conservation 
program--in this case, that of the International Whaling Commission 
(IWC). The certification triggers a process for the President to 
consider trade measures against Japan and requires him to report to 
Congress within sixty days on any action taken by him pursuant to the 
certification. Our goal is an outcome that protects this threatened 
resource and strengthens the effectiveness of the IWC.
                               HONG KONG
    Question. Why did the Clinton-Gore Administration deem the recent 
Hong Kong elections as ``free and fair,'' when more than 50 percent of 
the seats in Hong Kong's legislature were not democratically chosen and 
in fact were packed with people who are loyal to the Communist Chinese 
government?

    Answer. The Administration's assessment that Hong Kong's elections 
were ``free and fair'' referred to the conduct of the electoral 
process. Most observers, including democratic parties and civic 
organizations, agree that the elections were widely contested and free 
of fraud or malfeasance. Restrictions on campaign spending and 
regulations requiring equal airtime were rigorously and fairly 
enforced. The Administration recognizes that only 24 of the 60 
Legislative Council seats are fully democratic, i.e., directly elected 
by Hong Kong's people. We have never endorsed the British instituted 
system of ``functional constituencies'' or the ``Election Committee'' 
by which the other 36 seats were elected by significantly smaller 
numbers of voters. However, there have been no reports that any of 
those ``closed circle'' elections were characterized by fraud.
    In addition to commenting on constitutional limitations on the 
power of the legislature, the State Department's press statement on the 
elections also noted that Hong Kong's mini-constitution, the Basic Law, 
states the election of all members of the legislative council by 
universal suffrage is the ``ultimate aim.'' The United States continues 
to push for increased democratization in Hong Kong at a pace the people 
of Hong Kong want.

                                 ______
                                 

Responses of Hon. Madeleine K. Albright to Additional Questions for the 
                Record Submitted by Senator Gordon Smith

                            NATO ENLARGEMENT
    Question 1. Are there any Central European states that are prepared 
today to join the Alliance?

    Answer. NATO has not made any decisions on extending invitations to 
any of the nine self-designated aspirant countries--Albania, Bulgaria, 
Estonia, Latvia, Lithuania, Macedonia, Romania, Slovakia, and Slovenia. 
At the April 1999 Washington Summit, NATO agreed to review this process 
at its next summit, which will be held no later than 2002.
    The Administration, however, strongly supports an Open Door policy 
on NATO enlargement. President Clinton has stated: ``NATO's door is and 
will remain open to every Partner nation, and America is determined to 
create the conditions under which [aspirant countries] can one day walk 
through that door.'' Under the Membership Action Plan, NATO with full 
U.S. participation is working with the aspirants to help them become as 
strong candidates as they possibly can.
    The aspirant countries are fully engaged in the MAP process in 
order to enhance their candidacies for eventual membership in the 
Alliance.

    Question 2. As you know, Madam Secretary, at the Washington Summit, 
the Alliance committed to address the issue of NATO enlargement in 
2002. What, specifically, is the Clinton Administration doing to 
encourage our current Allies to be more supportive of NATO enlargement 
in 2002?

    Answer. We remain committed to establishing a Europe that is whole 
and free, and--pursuant to that policy--NATO enlargement remains a high 
priority. As NATO moves toward its next summit in 2002, the U.S. and 
its Allies focus on the issue in both bilateral and multilateral 
contexts. For example, via NATO's Membership Action Plan, Allies 
regularly meet in a structured program and review the efforts of the 
nine aspirant countries to improve their candidacies for membership.
    Most recently, during their meeting in Florence in May, NATO's 
foreign ministers reaffirmed the Alliance commitment to remain open to 
new members. Also in May, all nine foreign ministers of aspirant 
countries, meeting in Vilnius, Lithuania, underscored their commitment 
to taking the steps needed to fully implement their MAP programs.
    NATO will remain seized with this issue. Throughout the next year 
and into 2002 (the next summit is not yet scheduled but should take 
place the first half of that year), Allies will continue to work with 
aspirants via MAP. The U.S. will also continue to offer aspirants 
advice in bilateral and regional contexts.
                                  NATO
    Question. How do you assess the performance of Poland, Hungary, and 
the Czech Republic as new Allies?

    Answer. NATO's three newest members--Poland, Hungary, and the Czech 
Republic--are effectively integrating into the Alliance. All three are 
fully engaged in NATO's Defense Planning Process and are committed to 
providing the forces and resources that NATO is asking of them. The 
three newest members can provide military forces to NATO's Reaction 
Forces and are supporting operations in the Balkans.
    The defense budgets for the three countries have increased for the 
last three years and, despite domestic economic challenges, each has 
committed to increase or maintain at year 2000 levels its defense 
expenditures for 2001. The greatest challenge the three newest members 
face is the same faced by all NATO members: a lack of sufficient 
financial resources to implement all of their modernization programs 
and NATO Force Goals.
    They continue to reform, restructure and modernize their military 
structures to make them more mobile and more interoperable with other 
Allies' militaries. Particular emphasis is being placed on personnel 
reform issues and on the replacement or modernization of obsolete 
equipment.
    The three new members engaged in Operation ALLIED FORCE and 
supported NATO objectives. All three nations supported the air campaign 
by offering or providing the use of their airfields for the basing of 
NATO aircraft and troops and by allowing the transit of NATO forces 
through their territory.
    Further, all three nations provided financial assistance to 
Albanian refugees, accepted or agreed to take Albanian refugees from 
Kosovo, and deployed military forces and aircraft to Albania in support 
of humanitarian operations. Currently, each nation has military forces 
deployed in support of KFOR and SFOR.
    The three new members, particularly the Czech Republic, gave 
support to the democratic opposition in Serbia. Additionally, the three 
new members are sharing their experiences in preparing for NATO 
membership and providing invaluable assistance to those nations 
aspiring to join the Alliance.
    Overall--in a process that will take time to fully complete--I 
believe we must be pleased with the record to date on the performance 
of Poland, Hungary, and the Czech Republic as our newest NATO Allies.
                                 EUROPE
    Question 1. What impact do you expect the European Union's new 
defense identity to have on the process of NATO enlargement? Is the EU 
focussing more on this effort, than on the further inclusion of Central 
European countries in the Alliance?

    Answer. ESDI/P and NATO enlargement both figure prominently on the 
transatlantic security agenda. Getting ESDI right means that the 
Alliance will also be stronger. NATO has not made any decisions on 
extending invitations to any of the nine self-designated aspirant 
countries. At the April 1999 Washington Summit, NATO agreed that the 
door remains open to new members and they committed to review the 
enlargement process at the next Alliance summit, to be held no later 
than 2002. The May 2000 Florence Ministerial reaffirmed this commitment 
as NATO Allies continue to work with aspirants via the Alliance's 
Membership Action Plan.
    The EU has made a commitment to the further inclusion of new EU 
members in order to establish a Europe that is whole and free. The U.S. 
supports development of ESDI/P. The Open Door Policy on NATO 
enlargement, a successful ESDI/P as part of an Alliance framework, and 
integration of transitory democracies in Central Europe are mutually 
reinforcing developments.

    Question 2. Would the EU headline goal, if fulfilled, substantially 
increase the ability of our European NATO members to better contribute 
to a high-intensity NATO military operation, such as the NATO bombing 
campaign in Serbia?

    Answer. The EU Headline Goal aims to establish a rapid reaction EU 
force, consisting of 50,000-60,000 soldiers, capable of undertaking a 
range of crisis intervention missions--the so-called Petersburg tasks. 
If successfully implemented, the resulting enhanced European 
capabilities will benefit NATO as well as the EU. At the Feira Summit 
in June, EU member states again reaffirmed that the Headline Goal and 
NATO's Defense Capabilities Initiative will be mutually reinforcing.
    Successful implementation of ESDI/P and DCI would give the EU 
member states in the Alliance the capabilities to carry a greater share 
of the burden in possible peacekeeping operations. This is why we 
support ESDI/P--it will address the transatlantic gap in capabilities 
while ensuring that NATO as a whole will act when its interests are at 
stake.
                               NATO/ICTY
    Question. Did NATO's review of its conduct during Operation Allied 
Force in response to the investigation by the International Criminal 
Tribunal for the former Yugoslavia set a legal precedent that gives the 
Tribunal or any other international organization the right to 
investigate NATO activities, including those involving U.S. personnel?

    Answer. The jurisdiction of the International Criminal Tribunal for 
the Former Yugoslavia's (ICTY) is set out in UN Security Council 
Resolution 827 (1993). NATO responded voluntarily to questions from the 
Prosecutor of ICTY, which were part of an informal internal inquiry by 
ICTY and not a formal ``investigation.'' Voluntary cooperation, by its 
nature, does not create a legal precedent. The United States policy is 
to cooperate fully with the ICTY Office of the Prosecutor, whether 
legally required to do so or not. We and ICTY consider this matter now 
closed.
                        RUSSIAN JEWISH COMMUNITY
    Question 1. What steps has the Administration taken during the past 
year to indicate U.S. concerns about Russian Government interference in 
the internal affairs of the Russian Jewish Community?

    Answer. The Administration continues to make religious freedom in 
Russia a priority. Freedom of religion and the rights of religious 
communities to conduct their internal affairs is an essential part of 
Russia's democratic transition.
    We have conveyed to the Russian Government in our bilateral 
meetings our concern that religious communities, including the Jewish 
community, be free to conduct their internal affairs without government 
interference. The President, Secretary and other USG officials have 
discussed religious freedom during their meetings with senior Russian 
officials. Our views have also been put forward in public statements 
and reports which, we know, are followed closely by the Russian 
Government.
    Our Embassy maintains close contacts with all segments of the 
Jewish community in Russia and meets regularly with Jewish leaders to 
discuss this and other issues of importance to the community.

    Question 2. How confident are you of the Russian Government's 
commitment and ability to safeguard the rights of Russia's Jewish 
community, as well as other religious and ethnic minorities?

    Answer. President Putin recently made a strong statement in support 
of the Russian Jewish community, noting the importance of religious 
pluralism and respect for Russia's traditional religions.
    There have been statements and other actions by the Russian 
Government in recent weeks, however, that raise questions about the 
Russian Government's attitudes toward the Jewish Community. For 
example, on October 19, the police raided the Choral Synagogue 19. 
Earlier this fall, an anti-Semitic article in the press was attributed 
to a member of the Presidential Administration.
    We have called on the Russian Government to disavow these acts. In 
response, the Russian Ministry of Foreign Affairs has stated that the 
Russian Government is committed to protecting religious freedom.
    The registration of religious groups and organizations required by 
Russia's Law on Religion is proceeding at a faster pace but there is 
some concern that all groups will not be registered by the December 31 
deadline. Many of the earlier registration problems can be traced to 
confusing registration procedures or to local officials who do not 
understand the process. In some instances, however, local officials 
have used the process to discriminate against minority religions. In 
cases where the religious denomination has filed suit, the courts have 
generally ruled in their favor.
    We have urged Russian Government to do more to bring local 
officials and regulations in line with federal law and to give 
religious organizations every opportunity to register. Russian 
Government officials have offered assurances that most all 
registrations will be approved by the deadline. Potentially hundreds of 
groups may not be, but it is our understanding based on conversations 
with Russian Government officials that those groups not registered will 
not automatically lose their juridical status. Authorities must seek a 
court order before that status is withdrawn. This is a different 
interpretation than what religious organizations were led to believe 
earlier this year, and we hope that this is evidence that the 
government wishes to be responsive to religious freedom concerns.
    The Department and our embassy and consulates in Russia have 
actively supported religious freedom, regularly meeting with government 
and religious officials and investigating reports of violations of 
religious freedom.

                                   - 

</pre></body></html>
